<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                         TUESDAY, APRIL 8, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Jeanne Shaheen (chairwoman) 
presiding.
    Present: Senators Shaheen, Hoeven, and Boozman.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. STEPHEN T. AYERS, ARCHITECT OF THE 
            CAPITOL

              OPENING STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Good afternoon. I am going to call this 
hearing to order. Senator Hoeven is on his way, but we are 
going to go ahead and begin.
    This is the third hearing of the Legislative Branch 
Subcommittee of the Appropriations Committee for fiscal year 
2015. This is our last hearing on the 2015 budgets of the 
legislative branch agencies, and then we will begin writing our 
legislation.
    I want to thank all of those who will be testifying today, 
as well as the members of your agencies, for your work in 
preparing your budget submissions, and also for the good work 
that you do for the people of this country every day.
    We continue to operate with serious resource constraints, 
despite some of the efforts in 2014 to roll back the cuts from 
sequestration. Therefore, this subcommittee is going to have 
some tough decisions ahead of us as we look at the budgets of 
the agencies that will be testifying today.
    I want to begin by welcoming our first panel with Stephen 
Ayers, who is the Architect of the Capitol. The Architect of 
the Capitol, or AOC, maintains and operates the buildings and 
grounds of the Capitol complex.
    I like the statistics here, Mr. Ayers, that you cover 17.4 
million square feet of buildings and 460 acres of land, 
encompassing everything from the Capitol, the House and Senate 
Office Buildings, to the Visitors Center, the Botanic Gardens, 
and a number of off-campus facilities.
    I am especially pleased today, and I look forward to 
talking to you about your efforts to focus on energy 
efficiency, because you have been able to reduce our campus 
energy consumption by 25.2 percent over the last 10 years. That 
is even greater than the goal that was set. So I am looking 
forward to hearing how you have accomplished this energy 
savings.
    On our second panel, we are going to welcome Dr. James 
Billington, who is the Librarian of Congress, and Ambassador 
John O'Keefe, the director of the Open World Leadership Center.
    I look forward to discussing your requests, and I am 
particularly interested in hearing how the Library is 
modernizing its programs and services, and at the same time 
focusing on preserving and maintaining the historic collections 
within the Library of Congress.
    We will have a chance, when Senator Hoeven gets here, to 
hear any opening statements he might make. But at this point, 
Mr. Ayers, I would like to call on you for your opening 
statement. If we can keep the statements to about 5 minutes and 
submit the entire testimony for the record, that will give us 
time for questions.
    Thank you very much for being here.

               SUMMARY STATEMENT OF HON. STEPHEN T. AYERS

    Mr. Ayers. Thank you for the opportunity to testify today, 
Madam Chairwoman. We appreciate the support and trust the 
Congress and this subcommittee have placed in us to be reliable 
stewards of the resources provided each year. Your investment 
in our organization has created a healthier and more vibrant 
workplace for employees, and a safer and more inspiring 
experience for the more than 2 million visitors who come to see 
their Capitol every year.
    In our pursuit of meeting the highest standards of 
government accountability, we received our ninth consecutive 
clean audit opinion from independent auditors on our financial 
statements, and cleared all of our outstanding material 
weaknesses. This is something we are very proud of.
    Our greatest resource, of course, are the dedicated men and 
women who use their specialized skills to maintain our historic 
buildings, many of which continue to rapidly deteriorate.
    This year's budget request addresses several critical 
projects across the campus. I would also like to thank the 
subcommittee for your support of the Capitol dome restoration 
project. The dome exterior restoration continues on schedule 
and on budget, and you may notice on the West Front that 
preparation work is well underway, and later this spring and 
summer, work will be more visible to the general public as we 
begin construction of the scaffolding system around the dome.
    As part of the preparation work on the exterior, the 
rotunda will be closed for 2 weeks in April. I recognize this 
temporary closure of the rotunda is unfortunate and may cause 
disappointment to some, but it is necessary work. The closure 
is for the contractor to place a protective canopy that will 
allow visitors to safely access the rotunda while the exterior 
work continues.
    As we work over the next year and a half to complete the 
exterior renovation, we have included in our current budget 
request the final phase of the dome restoration project, 
specifically, repairs to the interior rotunda, parts of which 
date back to 1824.
    Over time, humidity and moisture in the rotunda have 
deteriorated its condition. I brought some photographs that 
illustrate its condition, which we can review should we have 
time later today.
    The interior work will restore the interior walls, the 
painted columns and pilasters, and the coffered ceiling that 
have sustained water damage.
    The work also includes updating the rotunda's mechanical 
and electrical systems to meet current codes and installation 
of new safety systems.
    Deterioration of the stone exteriors of our buildings 
continues to be a major concern of ours. We are requesting 
funding this year for the second phase of the Russell Senate 
Office Building exterior envelope repair and restoration 
project. This work will prepare the facade, windows, and doors; 
repoint masonry; and restore the finish of the exterior metals 
on the building.
    At the end of this year, you will begin to see scaffolding 
going up around the north facade of the Russell Building for 
the first phase of this project that was funded in fiscal year 
2014. Investment in this deteriorating stonework across the 
Capitol campus is necessary to preserve these historic 
buildings for decades to come.
    As we work to preserve the buildings in our care, we are 
also committed to finding ways to save money and save energy 
across the Capitol campus. This begins at the Capitol Power 
Plant, where we are currently working to implement a long-term 
strategy for saving resources, including the implementation of 
cogeneration that would allow us to use one fuel source to make 
electricity and steam at the same time.
    We are seeking a public-private partnership to leverage 
private investment and are working through that complicated 
business transaction as we speak.
    The AOC is committed to getting the best value for the 
Government, and we believe that cogeneration is the best 
solution for achieving optimal energy savings and maintaining a 
reliable source of chilled water and steam to cool and heat the 
buildings of the Congress and the Supreme Court.

                           PREPARED STATEMENT

    Our mission, of course, is to preserve the buildings of the 
Capitol campus for generations to come, so they too can marvel 
at the splendor of the dome, learn the history of this great 
Nation, and watch democracy in action.
    And so, with your support, we will continue in this 
stewardship role, so our buildings and grounds can inspire and 
educate all who visit the United States Capitol.
    Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Stephen T. Ayers
    Madam Chairwoman, Senator Hoeven and members of the subcommittee, 
thank you for the opportunity to testify today regarding the Architect 
of the Capitol's (AOC) fiscal year 2015 budget request.
    We appreciate the support and trust the Congress has placed in us 
to address critical construction and preservation projects across the 
Capitol campus, especially the ongoing U.S. Capitol Dome Restoration 
project. The investments you have made in the AOC have created a 
healthier, safer and more vibrant workplace for employees. Visitors to 
the Capitol campus have experienced awe-inspiring facilities in a safe 
and secure environment. Funding has also enabled us to preserve our 
history and ensure the Congress can accomplish its daily functions.
    It is our mission to ensure that the buildings and facilities of 
the Capitol campus effectively serve Members of Congress and their 
staff for generations to come. Everyday we focus our efforts on using 
sustainable practices to improve the future by the actions we take 
today.
    Sustainable practices are transforming our work in large and small 
ways by allowing us to reduce energy consumption and conserve natural 
resources, while at the same time preserving the historic fabric of our 
Nation's most iconic buildings.
    Specifically, we have found great success in meeting our energy 
goals by measuring our energy consumption, comparing building 
performance to long-term performance goals and improving our energy 
savings by identifying operational changes and opportunities.
    Maintaining and improving the integrity of a building's exterior 
contributes to the overall building's performance, including energy 
efficiency. Cracks and gaps in the exterior stone allow heat, cold and 
water to infiltrate the building, raising overall energy consumption. 
In this vein, stone preservation continues to emerge as one of our 
biggest priorities. Time and weather have not been kind to the historic 
buildings entrusted to our care. For the long-term preservation and 
safety of our buildings, we must take measures to stop water 
infiltration and do what we can to abate the deterioration of historic 
stone.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The conditions of the exterior stone on most, if not all, of the 
buildings on Capitol Hill are rapidly deteriorating. To prevent further 
deterioration, significant near-term investment is necessary.
    The first phases of the Capitol Building and Russell Senate Office 
Building exterior stonework were funded by the Congress in fiscal year 
2014. Coordination is underway to survey and plan for the erection of 
scaffolding around portions of these buildings. You will see the next 
phases of these projects in our fiscal year 2015 request. This 
investment will pay long-term dividends, as we make critical 
improvements that both address the growing needs across the Capitol 
campus and preserve these historic buildings for decades to come.
    We have developed our fiscal year 2015 budget request through a 
deliberative planning process using the best planning and predictive 
tools available. The recommendations we bring to you today are the 
result of this rigorous decisionmaking, which balances our mandate to 
be both fiscally prudent and trusted stewards of the national treasures 
you place in our care.
    In fiscal year 2015, we are requesting $676.6 million--a 0.7 
percent decrease from our fiscal year 2014 request.
    To address capital projects categorized as urgent or immediate, we 
are requesting $156.5 million. This is a $1.8 million or 1.2 percent 
increase from our fiscal year 2014 request, leaving $259.9 million in 
deferred maintenance work--work that still must be accomplished in a 
future request. While deferring maintenance increases costs and the 
risk of facility failures, we recognize that current fiscal realities 
won't allow for every project to be funded.
         aging infrastructure requires critical prioritization
    We specialize in repairing and restoring the historic buildings 
that provide both an effective workplace for the Congress and a 
destination that millions of Americans visit and enjoy all year long. 
Our workforce has unique and specialized skills honed for our historic 
buildings. In many instances, the craftsmanship of our employees has 
successfully disguised the serious conditions or fragile states that 
facilities are in or has temporarily stemmed any further deterioration.
    The key to successfully identifying these needs and the appropriate 
time to make these key investments is to prioritize projects to ensure 
resources go toward the most important work. Our Project Prioritization 
Process has never been more important than it is today. With vital work 
to be done and not enough resources to do it, the most urgent projects 
must rise to the top.
    We employ our Project Prioritization Process to rank every 
necessary project using two primary drivers: the conditions of the 
facilities and the urgency in which the deficiencies need to be 
addressed. Our process also takes into account the need to protect key 
infrastructure, mission-critical work, sustainability, preservation of 
heritage assets and our commitment to the efficient use of public 
funds. This has effectively allowed the AOC to identify and recommend 
to the Congress the levels of investment and maintenance required to 
ensure that all the facilities on the Capitol campus remain safe, 
functional and protected.
    As with all deferred maintenance, the longer necessary repairs and 
maintenance are postponed, the greater the risk of problems becoming 
worse over time and the repairs becoming more costly. The AOC continues 
to carefully monitor and maintain the facilities and systems to 
minimize the risk of catastrophic failure. However, delaying work on 
critical infrastructure and preventive maintenance puts even greater 
pressure on future fiscal years and on our employees to keep 
deteriorating systems running for much longer than best practices 
dictate.
    Due to the constraints of available resources, we have found that 
in certain cases it is necessary to phase major projects to better 
manage the time and resources needed to complete them. The ongoing Dome 
Restoration project is a first-rate example of this practice's success. 
The first phase, the Dome Skirt, was completed on time and below 
budget, and provided the project team with valuable lessons learned for 
the future phases of the Dome Restoration project.
    In addition to maintenance and construction work necessary to 
preserve our infrastructure, we are also tasked with accommodating new 
mission requirements. Therefore, we are requesting funds for the 
leasing of space on four commercial antenna towers within the 
metropolitan area to support the U.S. Capitol Police Radio System, 
which is vital to the health and safety of all who work in and visit 
Capitol Hill.
                           critical projects
    The buildings of the Capitol campus are well cared for by the 
dedicated men and women of the AOC who use their incredible talents and 
skills to maintain the buildings and grounds. However, upon closer 
examination, it is evident that wear and tear, weather, and 
environmental factors have taken their toll on the buildings. Water in 
particular is very destructive to stone structures. The sandstone and 
marble facades of our historic buildings are cracking, spalling and, 
most seriously, stone is actually breaking away and falling from many 
buildings.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    To address stone failures across the Capitol campus, the AOC has 
been conducting a series of exterior stone surveys. The results of 
these evaluations continue to confirm our deepest concerns--the 
conditions of the exterior stone on most, if not all, of the buildings 
on Capitol Hill are rapidly deteriorating. The precarious threat of 
falling stone is significant. Additionally, the temporary fixes that 
the AOC is undertaking to prevent catastrophic failures are not enough 
to prevent conditions from worsening. To fully address these issues, 
significant investments will need to be made.
    In our fiscal year 2015 budget request, we have highlighted several 
exterior stone projects for which we are requesting funding to repair. 
The U.S. Capitol South Extension Exterior Stone and Metal Preservation 
request is the second of four planned phases and involves the 
stabilizing, cleaning, repairing and preserving of the exterior stone 
on the Capitol Building's north facade of the south extension and its 
connection to the main west facade. This work will help to stem the 
water infiltration and protect Members of Congress, staff and the 
public from the risk of falling stone.
    The second phase of the five-phase Russell Senate Office Building 
Exterior Envelope Repair and Restoration project will address the east 
facade of the 105-year-old office building. The work will repair the 
facade, windows and doors; repoint the masonry; restore and refinish 
the exterior metals and make structural repairs to the balustrades.
    At the U.S. Botanic Garden (USBG) Conservatory, conditions at the 
exterior envelope continue to deteriorate with widespread cracking and 
spalling stone, and cornice and roof flashing failures. The USBG 
Conservatory Exterior Stone Repair and Roof Replacement project request 
will repair hundreds of cracks and spalls across the Conservatory's 
facade; repoint and reseal masonry joints and remove the existing 
roofing systems and replace them with a new vegetative roofing system. 
Instead of replacing the roof in kind, a new vegetative roofing system 
will have a longer lifespan and will reduce water runoff.
    These exterior stonework examples clearly show that the longer 
deferred maintenance projects are delayed, the more the conditions of 
these facilities will deteriorate. Instances of cracking and spalling 
stone will grow more serious, and ultimately, more costly to repair. 
Additional consequences from not addressing looming deferred 
maintenance projects are the continued crumbling of infrastructure; a 
loss of historic artwork and architectural features; continued system 
and building failures; and security threats.
    Damage to our crucial building infrastructure is especially 
concerning, such as the deterioration of several garages. We are 
requesting appropriations for the first of four phases to address the 
necessary Rayburn House Office Building Garage Rehabilitation repairs, 
which will focus on the severe concrete delamination and improving the 
structural stability of the garage. Engineering studies have identified 
severe corrosion of the reinforcing steel as well as spalling and 
delaminating concrete in the ceiling and support columns.
    In the Senate Underground Garage, major deficiencies have been 
identified in the upper plaza and fountain, including structural cracks 
and spalling concrete. The first of three phases of the Senate 
Underground Garage Renovation and Landscape Restoration project will 
address garage waterproofing and spalling concrete repairs to the 
ceiling. In addition, the upper plaza fountain will be restored along 
with the upper and middle plaza stairs, retaining walls and planters 
will be restored, pedestrian walkway will be waterproofed, existing 
light poles will be refurbished and the storm water management system 
will be upgraded. This would be the first major renovation effort since 
the 1950s.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    At the Capitol Power Plant (CPP), the West Refrigeration Plant is 
more than 30 years old and has long-standing structural and 
waterproofing issues, which have led to failures in spandrel beams and 
falling concrete. The CPP West Refrigeration Plant Chiller System 
Replacement project request would finish funding the third phase of the 
project, which includes repairs to the precast concrete connections, 
walls, columns and decks; applying water repellent coatings to the 
concrete roof deck and exposed surfaces and repairing flashing at 
column transitions.
    Safety is a top priority for the AOC and a number of safety-related 
projects are included in the fiscal year 2015 budget request, including 
the second phase of the project to replace the exhaust system serving 
the main kitchen areas of the Dirksen Senate Office Building. The work 
will renovate the kitchen exhaust systems to comply with the current 
fire safety code. In addition, the request also includes the funding 
needed to enclose the West Grand Stair in the Capitol Building to 
prevent smoke migration in the event of a fire. The work will address 
an Office of Compliance citation and will prevent the risk of smoke, 
heat and flames from spreading. Several projects in the Library of 
Congress buildings are needed to address life-safety issues as well. 
The construction of new exit stairs in the Thomas Jefferson Building 
will allow for the direct discharge of building occupants to the 
exterior of the building, as required by current code. In the James 
Madison Memorial Building, the number of elevator breakdowns has 
increased, requiring a growing amount of maintenance. The modernization 
of several elevators will significantly decrease wait times, reduce 
power consumption and decrease the need for maintenance.
    Our fiscal year 2015 budget request also includes funding for the 
final phase of the Dome Restoration project, specifically to repair the 
interior of the Rotunda. The work will restore the interior walls, 
painted columns and pilasters, and the coffered ceiling that have 
sustained water damage and paint delamination. Over time, the 
infiltration of humidity and moisture in the Rotunda has deteriorated 
the condition of the metal, allowing daylight to be visible through 
parts of the coffered ceiling. The work will also include upgrading the 
Rotunda's mechanical and electrical systems to current codes, and 
installation of new fire alarm and communications systems.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Funding our recommended projects in fiscal year 2015 ensures that 
necessary investments are made in our historic infrastructure, and 
increases the safety and security of those who work in or visit the 
facilities on Capitol Hill. In future budget requests, we will continue 
to include multi-phased projects to restore and repair the damage to 
the exterior stone to ensure that we preserve the unique and historic 
masonry features of the buildings that serve the Congress and the 
American people.
                  saving energy and natural resources
    The AOC has successfully reduced energy consumption across the 
Capitol campus for the past several years. However, with the completion 
of the U.S. Capitol and U.S. Senate Energy Savings Performance 
Contracts (ESPCs) in fiscal year 2013, meeting the mandated energy 
reduction goals will be more difficult because the projects that 
yielded quick results have been completed. We will be required to 
achieve further operational energy savings to complement the energy 
savings performance projects that are ongoing or have been completed.
    The ESPCs allowed the AOC to pursue energy and water conservation 
projects without incurring significant up-front capital costs or 
obtaining appropriations to pay for improvements. In the Senate Office 
Buildings, the ESPCs completed in March 2013 will allow us to avoid 
$3.9 million in annual costs. In addition, many facility infrastructure 
upgrades were made, including installing energy-efficient lamps and 
ballasts, adding state-of-the-art lighting controls in select areas for 
daylight harvesting and dimming, and upgrading heating, ventilation and 
air conditioning controls.
    In fiscal year 2013, we exceeded the Energy Independence and 
Security Act of 2007 (EISA 2007) energy reduction goal of 24 percent by 
achieving a 25.2 percent reduction. This marks our eighth consecutive 
year of meeting energy reduction goals outlined in EISA 2007, and 
represents approximately $14.5 million in avoided annual utility costs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    We've continued to make improvements to building automation systems 
by installing direct digital controls on the air handling units and 
terminal equipment spaces; reducing water usage; installing more 
efficient lighting systems, and further implementing energy curtailment 
strategies in the office buildings to reduce energy use across the 
Capitol campus.
    As part of our effort to reduce energy consumption, we began an 
aggressive metering program in fiscal year 2008 for electric, steam, 
chilled water, potable water and condensate services for all buildings 
on the Capitol campus. With the exception of a handful of meters, all 
buildings now have enhanced metering systems in place. A contract was 
awarded in fiscal year 2011 to a build a Utility Metering Enterprise 
System, which incorporated our existing metering infrastructure. This 
web-based system allows us to easily and quickly sort, filter and 
analyze large amounts of real-time data and generate and export 
jurisdictional and executive-level reports to help manage energy 
consumption. Today, we have the ability to compare actual building 
performance against theoretical or realistic performance energy 
targets.
    The CPP continues to play an essential role in the AOC's long-term 
energy conservation efforts. The CPP has made several operational 
improvements that contributed greatly to the reduction in energy 
consumption including the commissioning of a new chiller in December 
2013, as part of the Refrigeration Plant Revitalization project. Not 
only does this project increase the CPP's energy efficiency, it will 
reduce its long-term operating costs and increase cooling system 
reliability. In addition, the CPP continues to utilize a ``free 
cooling'' process where we use cold, outside air to create chilled 
water without running chillers, thereby conserving electricity.
    We are always looking to the future and strategizing how to save 
energy and resources in innovative and forward-thinking ways. As part 
of our Strategic Long Term Energy Plan for the CPP, Cogeneration 
technology was identified as an energy efficient and cost effective way 
to meet future energy requirements. Installing a Cogeneration plant 
will allow the CPP to generate both steam and electricity using one 
source of fuel. Cogeneration is a proven technology that will allow the 
CPP to increase system reliability, reduce its environmental impact, 
improve efficiency and help save taxpayer money. We are currently 
working with local utility providers to plan and install an energy 
efficient Cogeneration system at the CPP.
                             working leaner
    The AOC's team of skilled craftsmen and professionals is our 
greatest resource and each employee's contribution is vital to our 
success. They understand that we must find new and innovative ways of 
doing business to improve efficiency and productivity. During fiscal 
years 2013 and 2014, we addressed the challenges of sequestration by 
undertaking cost avoidance measures to work smarter and leaner.
    Even in a challenging fiscal climate, we continued to reduce our 
overtime costs by improving project planning, restructuring work shifts 
and establishing overtime budgets. As a result, the AOC cut more than 
18,600 overtime hours from fiscal year 2012 to fiscal year 2013. A 
great example of this occurred in the Capitol Building jurisdiction, 
which reduced its overtime to less than 5 percent of the available 
hours.
    Across the AOC, we are implementing a new initiative that 
capitalizes on the exchange of institutional and professional 
knowledge. The Exchange of Critical Expertise and Learning (ExCEL) 
Program uses internal resources for training in an effort to combat 
dwindling training budgets, a growing number of employee retirements 
and the loss of institutional memory, and filling gaps in essential 
workplace competencies due to ongoing hiring freezes. It's also an 
innovative opportunity for AOC jurisdictions to work together and share 
their knowledge and expertise with their fellow colleagues. Now when 
employees who have participated in the program are working on equipment 
and need assistance, they can reach out to others across the 
organization for guidance.
    Another cost avoidance strategy that was developed and implemented 
was the Return to Work program, which is intended to return long-term 
workers' compensation employees to positions that have been designed to 
accommodate their limitations. This effort provides opportunities for 
these employees to be productive and affords reductions in workers' 
compensation costs for the AOC.
    In fiscal year 2013, recognizing tight budgets and limited 
resources, we decreased our investment in employee training. Sensing a 
need, our Training and Employee Development Branch and Acquisition and 
Material Management Division worked together to enroll the agency in 
the Federal Acquisitions Institute, which offers courses and webinars 
on various topics for a nominal fee or at no cost to the AOC. By 
creatively approaching problems, we open up doors to new and additional 
resources to meet our growing demands with limited funds.
                       pursuing safety excellence
    Reducing energy consumption and conserving natural resources saves 
money, as does preventing injuries and accidents within the AOC's 
workforce. Our philosophy of People First, Safety Always serves as the 
foundation for continuous improvements in safety.
    The AOC strives to integrate safety into everything we do as we 
pursue our zero-injury safety culture. We are standardizing and 
coordinating operational best practices. Safety continues to be a top 
consideration in planning and allocating funds for capital projects.
    As we pursue safety excellence, we continue to develop and rollout 
our agency-wide, safety enhancement programs. During fiscal year 2013, 
AOC employees experienced an injury rate reduction from 3.91 percent 
down to 3.28 percent. Specifically in the Senate Office Buildings, 
employees achieved an injury rate reduction of 13 percent from January 
2013 to January 2014. And since the beginning of fiscal year 2014, 
there has been only one injury claim filed in the Senate Office 
Buildings jurisdiction. These gains were achieved by focusing on 
individual awareness, inspections and identifying and correcting at-
risk behaviors through employee engagement.
                     enhancing visitor experiences
    The AOC is dedicated to creating a safe, welcoming and informative 
experience for all who visit Capitol Hill. For many visitors, this may 
be their first and only time seeing the Nation's Capitol, and we work 
hard to ensure the experience is worthy of this working symbol of 
American democracy and freedom.
    The U.S. Capitol Visitor Center (CVC), with its mission to 
``inform, involve and inspire,'' introduces visitors to Congress and 
the legislative process, as well as the history and development of 
architecture and art of the U.S. Capitol. On December 2, 2013, the CVC 
marked the fifth anniversary of the day its doors were first opened to 
the public. And since that day, the CVC team has welcomed more than 11 
million people to the U.S. Capitol. The dedicated employees of the CVC 
team work to enhance customer service, hospitality and visitor 
engagement in a seamless, positive visitor experience. For example, the 
CVC staff initiated two new informational programs, ``What's Happening 
in the Chambers,'' and ``Encounters in Exhibition Hall.'' They also 
provided tour training for nearly 4,000 congressional staffers. 
Overall, the CVC continues to welcome nearly two million visitors 
annually and ensure that visitors receive an enriching, memorable and 
inspirational tour experience.
    The USBG is a living plant museum with a mission to educate the 
public about the value of plants in our society by providing visitors 
with a unique and inspiring experience. In 2013, the USBG had a record-
setting year with a total annual visitation of nearly 1.7 million, an 
increase of almost 500,000 visitors over the previous record. With the 
blooming of the titan arum (also known as the corpse flower) on July 
22, 2013, the USBG had its highest visitation day on record with more 
than 22,000 people. During its 13-day public display, more than 140,000 
people saw the titan arum in person and over 670,000 unique viewers 
watched on the live web stream, making it one of the most publicly 
viewed flowers in the history of U.S. gardens. In addition to 
displaying rare plants in bloom, the USBG also hosts special exhibits 
like the popular annual holiday show and a biennial orchid exhibit in 
partnership with Smithsonian Gardens. The enthusiastic employees of the 
USBG continue their dedication to educating the public about ways to 
nurture the plants that support life on our planet and explaining the 
importance of plants to the well-being of our Nation and the world.
                            accomplishments
    Congress and the American people can trust that the AOC is an 
exceptional steward of the resources provided to us every year. We 
carefully manage taxpayer money to ensure the very best value and 
prudent use of funds.
    The AOC is dedicated to meeting the highest standards of Government 
reporting by cultivating an atmosphere of accountability and 
responsibility. For the second consecutive year, we were recognized by 
the Association of Government Accountants (AGA) with its Certificate of 
Excellence in Accountability Reporting (CEAR) Award for our fiscal year 
2012 Performance and Accountability Report. The annual CEAR award 
recognizes high-quality Performance and Accountability Reports and 
Annual Financial Reports that effectively illustrate and assess 
financial and program performance, accomplishments and challenges, and 
cost and accountability. We also received our ninth consecutive Clean 
Audit Opinion from independent auditors on our financial statements. In 
addition, the AOC cleared the material weakness from past years 
regarding our Internal Control Program and for the first time have 
neither material weaknesses nor significant deficiencies resulting from 
our annual audit.
    Small businesses are the cornerstone of our success and developing 
partnerships by working with local small companies is a sustainable 
practice on which we will continue to build. In fiscal year 2013, we 
exceeded all of our small business goals, even surpassing the 
accomplishments achieved in fiscal year 2012. Specifically, we beat our 
goals for women-owned, veteran-owned and HUBZone small businesses, and 
awarded more than $25 million to small businesses.
    In 2013, the AOC successfully completed the planning and 
construction activities in support of the Presidential Inauguration and 
the orchestration of 222 post-election office moves for the U.S. House 
of Representatives and 32 office moves for the U.S. Senate. In 
addition, we completed the restoration of the House Chamber ceiling 
during the August District Work Period.
    We are true professionals, recognized by our peers, and Congress 
can count on us to get the job done. Industry professionals regularly 
acknowledge our work on construction projects. For example, the 
Construction Management Association of America recognized the AOC with 
multiple awards, including our work on the East and West House 
Underground Garages and the Capitol Dome Skirt Restoration project.
                               conclusion
    Members of the subcommittee, our mission is to care for and 
preserve the iconic buildings on Capitol Hill for generations to come. 
Continued deterioration and deferment of critical maintenance poses 
great challenges to the AOC, but we will continue to work with the 
Congress to provide our best professional advice and counsel on how to 
address these projects.
    We appreciate Congress' support, and that of the American people, 
as together we make the investments necessary to preserve and maintain 
our national treasures. We developed our fiscal year 2015 budget 
request by prioritizing projects that allow us to be good stewards of 
our buildings and taxpayer dollars. There is much work to be done, but 
we believe that preserving the historic fabric of our Nation is well 
worth the effort.
    We look forward to our continued collaboration with you to serve 
the Congress and the American people, preserve the historic facilities 
entrusted to our care, and inspire and educate those who visit the U.S. 
Capitol.

                                 ______
                                 

      Photos That Were Presented at the Hearing as Handouts/Boards

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Shaheen. Thank you very much.
    Before I begin my questions, Senator Hoeven, did you have 
any opening remarks you would like to offer?

                    STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. Mr. Ayers, thanks for being here, and we 
look forward to working with you on your budget, to do the best 
job we possibly can with the resources we have.
    Thanks so much.
    Mr. Ayers. Thank you.
    Senator Shaheen. Thank you, Senator Hoeven.
    Senator Hoeven. Sorry I went on so long.
    Senator Shaheen. I wish you would keep it short, please.
    I am really pleased that we have a budget compromise that 
provided spending top lines for both fiscal years 2014 and 
2015, but, unfortunately, the top line for 2015 is really 
effectively a freeze on what we have seen in 2014. Therefore 
the concern that I have and the question for you, given that 
the request of the AOC for fiscal year 2015 is an increase of 
12.4 percent above the 2014 level, is how would you prioritize 
between the 21 major projects in your budget request?

                         PROJECT PRIORITIZATION

    I just want to be clear that I know the goal here is to 
address repair and maintenance of all of these critical 
infrastructure facilities, and we don't have any projects here 
that are throwaways that are just nice to have, restoration 
projects. I know they are all things that really need to be 
done. But given our budget constraints, I am interested in 
hearing from you, and I think the committee is interested, in 
how you prioritize these projects in a way to give us guidance 
as we look as the budget challenges we face.
    Mr. Ayers. I think we have a terrific way of prioritizing 
projects. We have been working on that particular issue for 
many years. A handful of years ago, we developed what we think 
is a solid and neutral process that allows us to prioritize 
projects. We use three basic criteria.
    The first is the importance of projects, whether it is 
mission, economics, energy savings, security, historic 
preservation, or security and life safety. So we take all of 
those factors and evaluate a project and give it a numerical 
importance score against all of those factors.
    Secondly, we look at the urgency. Does that project need to 
be done now? Or can it wait 2 years? Can it wait 4 years? Can 
it wait 6 years? So we categorize every project as urgent, 
high, medium or low urgency.
    And then lastly, we will define the type of project, 
whether it is deferred maintenance, capital renewal, capital 
improvement or capital construction. And the thinking there is 
we want to--and I think the committee would want to--ensure 
that we are investing the most money in deferred maintenance, 
meaning fixing what we already have, before building new, which 
is capital construction.
    So then we take those three categories, and we mix them 
together in an algorithm that ultimately produces a prioritized 
list of projects. And you will see in our budget book, they are 
in priority order from 1 to 21.
    And historically, we are very effective at working with the 
committee. We recognize that not all 21 of those projects can 
be funded. And using that tool, we are good at working with the 
committee to help advise you on what are the most important 
projects to be funded now.
    Senator Shaheen. Good. Thank you.

                   COST ESTIMATING AND RISK ANALYSIS

    Part of the question that I think we have also has to do 
with how we analyze your methods for estimating project costs. 
As I am sure you know, GAO has raised questions about whether 
AOC's estimates sufficiently reflect things that might happen 
to increase costs over the life of the project. So, can you 
talk about how you plan for that, as part of your cost 
methodology?
    Mr. Ayers. Absolutely. As with any GAO engagement, we 
always come away learning something, and they always have value 
for us. So I think in this particular engagement, we have a 
couple of recommendations, two or three recommendations, that 
can further add value to the cost estimates that we provide in 
our budget and provide to the committee.
    First, rest assured that our estimates are pretty good and 
pretty accurate. We have a great track record of providing 
solid cost estimates. But they can always be a little bit 
better. And so the specific recommendations from GAO to do a 
statistical risk analysis of the factors that could increase 
costs is a good thing to do, especially on major projects, such 
as $50 million or $100 million projects. We would want to spend 
that additional $20,000 or $30,000 to do that kind of analysis.
    So we will do that. And we have committed to GAO to do 
that. And it can only make our cost estimates better.
    Senator Shaheen. Good. Thank you.

                COGENERATION AT THE CAPITOL POWER PLANT

    To go to the fun questions now about energy use, can you 
talk about how the determination was made to actually come up 
with cogeneration as a solution to deal with the future power 
needs?
    Mr. Ayers. Absolutely. I think it was 2007, Madam 
Chairwoman, that we recognized that we needed a long-term 
strategy at the Capitol Power Plant. So we approached the 
National Academy of Sciences and asked them to assemble a panel 
of blue ribbon experts in this field to help us determine the 
long-term strategy and long-term needs and long-term activities 
at the power plant. And they did so. And we spent over a year 
developing a strategic plan.
    And we looked at our current fuel mix, natural gas, 
biofuels, cogeneration and cogeneration with natural gas or 
biomass or coal or fuel cells, and nuclear and coal 
gasification options. We looked at a wide variety of 
possibilities. And we considered all of those potentials 
against economics, security, flexibility and reliability, which 
is so important to us here on Capitol Hill.
    And ultimately we determined that cogeneration came out as 
the top investment that we should make for the long-term 
improvement of the Capitol Power Plant.
    Senator Shaheen. I am going to ask why, but I am out of 
time, so I will turn it over to Senator Hoeven and then come 
back to it when he is finished.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.

                            DOME RESTORATION

    First, these pictures are excellent, really excellent. And 
I am not exactly sure how you are using them, but I think for 
anyone who is wondering about the dome restoration, or what you 
are doing, the old ``a picture is worth 1,000 words,'' someone 
going through this, both in terms of seeing how you are going 
to do it, I mean, you could have a long explanation, but 
showing them this goes so far to explain how you are doing it 
both inside and out. So that is excellent, just in terms of a 
tool to explain how you are actually going to physically do 
this work. I didn't really get it until I saw those pictures.
    And the other thing is, on the necessity for doing the 
work, I think these pictures are so important, again, both 
inside and out. When someone looks at the crack on Capitol 
exterior stone cracking and spalling on page 7, when they look 
at pages 9 and see how, I don't know the term of art for the 
figures on slide 9, but you can see what is happening. And then 
another one I thought particularly effective from an interior 
standpoint is 6. It is, certainly, excellent.
    I think somebody looking at that, even a layman like 
myself, looking at it realizes that if this work isn't done, we 
are going to lose the dome. We are going to lose it as it truly 
historically is. That is not to say that at some point, you 
couldn't go in and remake it, but I think it would have to be 
different because it would have gone so far, you wouldn't be 
able to salvage and resurrect materials and the dome as it is.
    I think that is an incredibly important story because the 
dome is such a symbol of our country and a symbol not only for 
more than 300 million Americans, but around the world. I mean, 
the Capitol dome says America, it says freedom, and all these 
things. So it is an expensive project, but I think it is a 
project of incredible importance.
    So anyway, these slides are marvelous, and I hope you find 
venues to get those out as broadly as you can to the public. I 
think there will be a lot of interest in them.
    You and I have had some discussions before, and, as you 
know, I am very committed to this project. I think it is 
incredibly important. I know our chairman is as well.
    And it is a transcendent project. It really is. For you and 
all your people, you will be looking at it and telling your 
grandkids and so forth, that you took care of that, and so 
forth.
    But I do think that there is a lot of interest, so as you 
find venues to get that out to the public, I think it they will 
be quite interested. And I think have a better understanding of 
the true condition of the dome.
    So, great work there. I am going to come back to the dome 
in a minute.

                   COST ESTIMATING AND RISK ANALYSIS

    I want to follow up, I guess, on something our chairman was 
talking about and that is the GAO report. On accuracy in the 
GAO report, it says cost estimates are not updated with actual 
costs during construction and execution during the project. Why 
is that? I mean, that sounds logical, so why aren't you doing 
that or how are you doing it, if not the way GAO prescribes?
    Mr. Ayers. Well, I think when GAO suggested that we should 
update our cost estimates with actual costs, that is 
problematic for us because our contracts are, generally 
speaking, firm fixed-price contracts and we pay on price. We 
don't pay on cost.
    So I think that part in GAO's guidance may be for cost 
reimbursable projects, not really for firm fixed-price 
projects. So we would have to ask our vendors what are their 
actual costs of doing construction, and that is not something 
that they are likely to give us because they bid on price, not 
necessarily cost.
    But we do think, as we go through a project, that there are 
often changes to a project, changes in conditions or change 
orders, and we can use that information to continually update 
the cost and schedule of a project.
    And more importantly, and getting to the root of GAO's 
recommendations, is to be able to use those lessons learned on 
future cost estimates, and we are committed to doing that.
    Senator Hoeven. Have you had a discussion with them to that 
effect? Were they not inclined then to modify the 
recommendation accordingly?
    And I don't think they want your contractors' costs as much 
as they want a cost completion for your project, right?
    Mr. Ayers. We did have that discussion with them, and they 
are looking for actual costs.
    Senator Hoeven. They were?
    Mr. Ayers. They were.
    Senator Hoeven. Not a cost allocation?
    Mr. Ayers. Correct.
    Senator Hoeven. Okay, so then I am kind of leaning your way 
on this one. What was their reaction to your recommendation? I 
don't understand what the contractors' costs--you want a cost 
allocation for what it is going to cost you to finish the 
project. In theory, if it is 50 percent done, there shouldn't 
be more than 50 percent of your costs prescribed, although we 
both know that isn't actually how it works, but some kind of 
cost allocation system.
    Mr. Ayers. Certainly. When we work with contractors like 
that, we get a cost allocation from them, and that is how we 
pay them. So it is a schedule, and that schedule is cost 
loaded. And each month, they will submit an invoice for what is 
done based upon that cost-loaded schedule. That is how we 
routinely do business.
    But I think they were actually trying to get at what is 
their productivity rate, what are they paying a mason, what are 
they paying a carpenter, what are they paying for the price of 
wood or concrete and steel. And we just don't get that level of 
information on firm fixed-price contracts.
    Senator Hoeven. Really, that goes more to your bidding 
then.
    On a cost basis, other than like with computer projects, if 
a vendor has a huge amount of investment in that thing and they 
don't have much to show for software, or you don't, at the end 
of the project, you spent all of your money, they have made a 
huge expenditure, and you don't have anything that works. And 
then to say, ``Well, it doesn't matter. They were supposed to 
provide it, and we wrote them a check and we don't have it,'' 
we still have a problem, right?
    Mr. Ayers. Yes.

                     COST ESTIMATING METHODOLOGIES

    Senator Hoeven. So I get that. But in this case, what was 
their response? How did they react to your response in terms of 
this recommendation?
    I am trying to understand whether you are going to change 
your procedures, because obviously this is really what you do, 
is make sure stuff gets fixed up and taken care of and built 
and constructed. So how are you going to handle this? And was 
there any agreement with them on whether it was the best way to 
handle it?
    Mr. Ayers. Well, I do think we have an agreement. We did 
have extensive discussions about this particular recommendation 
because it is not something we thought we could directly 
achieve with the recommendation that was in their cost 
estimating guide.
    But I do think we are in agreement on the fact that we have 
to get to and manage costs through the life of a project, 
institutionalize those costs, and fold them back into the next 
project and the next project.
    It is learning from how costs can change in projects that 
enable you to do a better job upfront in estimating projects.
    Senator Hoeven. What about when they talk about the 
credibility, you documenting the contingency levels you 
establish, and then also using GAO's leading practice for 
incorporating risk analysis into those estimates? Talk about 
that for a minute.
    Mr. Ayers. Well, the risk analysis portion----
    Senator Hoeven. Those estimates are vitally--excuse me, I'm 
sorry. I didn't mean to interrupt.
    But those estimates really are important, because they kind 
of determine whether we feel like we are getting a good bid or 
not, right, based on your estimates?
    Mr. Ayers. Correct. Absolutely.
    And again, we have a great track record of that. But they 
could always be better, and I think this risk analysis we have 
committed to do on large-scale projects. We think it will 
definitely make our estimates better and give better 
credibility to the process.
    And secondly, on documenting the way we come up with 
contingency on a project, they had some good recommendations 
there as well, such as presenting these cost estimates to 
management and making sure that management agrees with them and 
approves the estimates in writing. That is a good practice that 
we don't have, and that we are going to implement.
    And then lastly, they did give us some recommendations to 
better document how we come up with contingency on our cost 
estimates. So if we build a building, the building may cost 
$100 million. We may include sometimes 5 percent, sometimes 10 
percent, sometimes 15 percent, and occasionally up to 20 
percent contingency. And we have done that qualitatively, and 
they recommend that we get more quantitative in that part of 
our cost estimating. And we think we can, and we will.
    Senator Hoeven. I think this discussion is right on. And I 
think to the extent you are able to work through that and we 
get GAO coming back to us and saying, yes, they are doing it--
for example, dome restoration project, the total project cost 
is estimated to be $105.1 million, with completion projected 
for August 2016.
    In your hypothetical, you said, so if a project costs $100 
million, here's the dome, it is $105.1 million. So that is a 
significant expenditure.
    This is an incredibly important project, as I have stated, 
whether or not we feel we got a good deal, whether or not in 
fact we got a good deal, goes back to your expertise, which is 
tremendous, and your ability to estimate what that should cost.
    I was going to say ``we,'' but I don't speak for the 
chairman. I have no way to know what a project costs without 
you. So that is why that part of the process is really 
important. That is the underlying credibility for us knowing on 
these incredibly important projects, which we must do if we 
really did get that good deal, and I think it goes to the heart 
of really what you do.
    So, thank you. That is why I think that piece of the GAO 
study is important and that you have a meeting of the minds, 
and we feel like between you, the GAO, and ourselves, we are 
doing as well as we possibly can.
    And I believe we are. I am not saying you are not. But just 
to make sure we get everybody on the same page and in 
agreement, I think is important and good for you in your job 
and good for us as somebody who works with you on the budget.
    Mr. Ayers. We agree completely.
    Senator Shaheen. Thank you, Senator Hoeven.

                              COGENERATION

    I know we will get back to the Capitol dome restoration, 
but I do want to go back to the power plant and the decision 
around cogeneration. I would like to better understand what the 
panel thought the advantages were to doing cogeneration to 
generate the steam and chilled water to heat and cool all the 
buildings.
    Mr. Ayers. I think as we looked at all of the different 
options that were available to us, comparing those against our 
pre-established criteria of economics and security and 
reliability and environmental concerns, it was cogeneration 
that best met all of those indicators.
    So, certainly, from a reliability perspective, it is a 
proven technology that many people across the country and many 
organizations right here in Washington, DC, have already 
employed. And it has been employed for many years, so it is 
proven to be reliable, and that is something that is important 
to us.
    We looked very carefully at the energy-saving capabilities, 
as well as the greenhouse gas issues related with all of those 
technologies. Cogeneration had very good benefits in both of 
those areas as well.
    So that is kind of the process we went through. And 
ultimately, when we compared the alternatives against our pre-
established criteria, cogeneration came out on top.
    Senator Shaheen. I understand that you are working on a 
contract with utility energy services to implement the project, 
and that it is essentially a kind of Energy Savings Performance 
Contract (ESPC) that will be administered by the utility. Can 
you update us on whether that contract has been finalized and 
how it is going to work exactly?
    Mr. Ayers. I would be happy to.
    A utility energy services contract is one that guarantees 
performance. It doesn't necessarily guarantee energy savings. 
This type of contract guarantees performance.
    So with a given fuel, it will guarantee a given amount of 
steam and a given amount of electricity. So that is kind of the 
parameters of what they are going to guarantee. And if they 
don't reach that, they don't ultimately get paid.
    If we frame those parameters properly, there is obviously 
going to be some significant energy and cost savings as well in 
that.
    We have two local vendors who specialize in this kind of 
work. We have approached them. We spent a few months speaking 
with the first vendor about pricing. At the conclusion of our 
discussions, we don't think that they are interested in doing 
this work, so we are now working with a second vendor to 
determine their level of interest.
    The second vendor does seem to be interested. They do 
advise us that our business model seems to be effective, and 
they think that they can provide and install a cogeneration 
plant that will meet our needs under the business model we have 
laid out for them.
    Senator Shaheen. It is my understanding that the investment 
from the ESPC is going to pay for the cost of the new plant? Is 
it going to pay for the whole cost? How are we paying back to 
the ESPC the cost of what is going into the power plant?
    Mr. Ayers. So it is primarily private money. There is a 
small bit of appropriated dollars that are necessary to enable 
us to pay our expert consultants and our staff to help oversee 
and manage the planning, as well as the construction.
    Senator Shaheen. That is the $1.7 million request, is that 
correct?
    Mr. Ayers. Yes.
    So, otherwise, it is a private venture, and this company 
will provide all of the upfront costs and install the equipment 
and commission the equipment. That will then reduce our energy 
expenditures.
    And we will use that money between what is appropriated and 
what our expenditures actually are to pay the vendor back over 
typically 15 years.
    Senator Shaheen. And we expect it to take 15 years for 
payback for this project?
    Mr. Ayers. Yes.
    Senator Shaheen. What do we expect the lifetime of the 
plant to be?
    Mr. Ayers. Well, a cogeneration system could last 30 to 40 
years for us.

                  ENERGY REDUCTION AND SUSTAINABILITY

    Senator Shaheen. You talked about the savings in terms of 
emissions. One thing I have heard from people around the 
Capitol plant has been concern about the emissions from the 
existing power plant. Do we have any quantifiable information 
about how much we will be saving on emissions as a result of 
the new plant? And then also whether we will be saving in terms 
of our actual energy use, as a result of the new plant?
    Mr. Ayers. We do have that data, both in terms of hazardous 
air pollutants and greenhouse gas emissions. I don't have the 
specific numbers in front of me, but from a greenhouse gas 
perspective, carbon dioxide, nitrous oxide, and methane all go 
down regionally. And from a hazardous air pollutants 
perspective, mercury and inorganic and organic compounds all go 
down regionally. And inorganics, mercury and non-mercury 
metallics all go down locally.
    Senator Shaheen. And on the energy-saving piece of it?
    Mr. Ayers. On the energy savings, we think that typical 
cogeneration systems will save us about 190,000 MWh. And in 
dollar terms, that will yield about $5 million to $7 million a 
year in savings.
    Senator Shaheen. Wow. And what is the total cost of the 
project?
    Mr. Ayers. Approximately $105 million.
    Senator Shaheen. Were there any concerns from OMB, CBO, or 
anybody in terms of looking at the numbers for what the 
investment was going to be on the part of the ESPC, and then 
what the payback would be? Was there any concern about the time 
period there or whether we are going to actually generate the 
savings to be able to pay back the dollars invested?
    Mr. Ayers. We have not heard concerns from CBO.
    Senator Shaheen. Have they looked at the project?
    Mr. Ayers. They have not, to the best of my knowledge.
    Senator Shaheen. The reason I ask is because there have 
been questions, in my mind, about how CBO scores the costs of 
ESPCs, so I am just trying to figure out how it might have been 
looked at in terms of the power plant that might be different 
from other agencies.
    Can I ask, do you have plans for using ESPCs in any other 
of the buildings around the campus?
    Mr. Ayers. Absolutely. We have extensive experience already 
with ESPC contracts, and we have used them successfully in the 
House of Representatives and the Capitol Building and here in 
the Senate Office Buildings. And those were three separate 
contracts, and all of them have finished their construction.
    The total investment there was about $93 million over the 
course of a couple of years. And we have now finished 
construction and are in the measurement and verification 
portion of that.
    So we have three under our belt, and they are proven to 
work for us. I think the one in the House is saving us a little 
over $3.5 million a year, the one in the Capitol just over $1.8 
million a year, and here in the Senate about $3.9 million a 
year. So they seem to be effective.
    We are considering, at some point in the future, doing the 
same thing for the Library buildings, which we manage as well.
    Senator Shaheen. And again, are you looking at about a 15-
year payback on those contracts, same as with the power plant?
    Mr. Ayers. On average, yes, ma'am.
    Senator Shaheen. Okay. I have gone over my time.
    Senator Hoeven.
    Senator Hoeven. I think I went over my time by a larger 
margin last time, so no worries there.

                         BUDGET PRIORITIZATION

    So my next question is, your overall budget increase is 12 
percent. And I know the chairman just brought that up.
    But talk about what reductions you will make if we have to 
reduce that number below 12 percent. What are you going to do?
    Mr. Ayers. I am sorry, Senator Hoeven, can you repeat that 
question?
    Senator Hoeven. Sure. Your increase for fiscal year 2014 is 
12 percent higher than fiscal year 2014 enacted. If we have to 
reduce that 12 percent, how are you going to do it? Where would 
it come from?
    Mr. Ayers. Yes. I understand. As you look at our budget, 
there are two basic components to our budget each year. The 
first is our day-to-day operations that pays our salaries, does 
all the maintenance on all of our buildings. That, generally, 
stays consistent year-over-year and only increases unless there 
is a mandatory kind of increase, a pay raise or something like 
that. So that has stayed pretty consistent.
    The second part of our budget is this capital portion that 
ebbs and flows, year after year. And I think the key to that is 
having a project prioritization process that we believe in and 
that you believe in that yields projects that are in priority 
order.
    And I think the key to that is working from the bottom of 
that list back up until we find the number that is necessary to 
fit.
    And that is a collaborative effort between the committee 
and our staff to work through that to fit our needs within the 
budget allocation that we have before us.
    Senator Hoeven. Yes. That is what I kind of anticipated. It 
seems to me to make a lot of sense. I am not sure really what 
else you could do.

                            DOME RESTORATION

    Along that line, you have $20 million additional for the 
dome, $20.2 million for the interior spaces of the dome. This 
is the last phase to be funded for the dome restoration 
project.
    But the $60 million we funded is a 4-year period. Is that 
all for the exterior? At what point would you need the $21 
million for the interior? Do you do that concurrently with the 
exterior work? How does that come together?
    Mr. Ayers. When we solicited the project to restore the 
dome, we actually solicited all three phases at the same time 
under one contract. So we have the bids before us for the 
exterior work, and secondly for the work between the outer dome 
and inner dome that was funded in 2014, and lastly for this 
final phase that is before us for the 2015 budget.
    We have all of those bids in hand under one contractor, and 
we think all of that work can be done before the next 
presidential inauguration. And we are ready to do that.
    So this money needs to come in 2015. I can tell you that we 
think we need to award that in March 2015 to be successful.
    Senator Hoeven. Okay, that, clearly, then needs to happen 
to get all this done.
    Mr. Ayers. Yes.
    Senator Hoeven. By the next inaugural.

                          DEFERRED MAINTENANCE

    You had talked about serious deterioration of stone that 
makes up the facades of most of our buildings here.
    In the House markup, you mentioned you would be able to 
tackle 21 projects from your list of deferred maintenance. So 
just talk a little bit about how we are doing on the deferred 
maintenance? And are we building up a big backlog, particularly 
with the stone facades and some of these things that obviously 
are unique to Washington, DC? How we doing?
    Mr. Ayers. Our backlog has actually stayed steady for 2012 
and 2013. Today, our backlog is at $1.4 billion of deferred 
maintenance and capital renewal of work. That is actually down 
a little bit from 2011. You may recall in 2011, it was $1.6 
billion.
    So it seems to me, as I mentioned earlier to Senator 
Shaheen, as we budget our work, we want to be sure that most of 
our investments are going to deferred maintenance over new 
construction. And I think that strategy has worked for the 
committee, as we have brought down a little bit of our deferred 
maintenance, from 2011 anyway.
    But it is still $1.4 billion.
    Senator Hoeven. I agree that is the right strategy, very 
strongly. I guess my follow-up question is, how are we doing? I 
understand that $1.4 billion backlog. What does that mean 
though for some of these stone facades and so forth? Are 
getting to them in time where we are going to be able to 
maintain them over the long term?

                    DETERIORATION OF EXTERNAL STONE

    Mr. Ayers. I am not so sure that we are. Maybe I could 
refer to some of the images that I brought with me.
    You mentioned image 9 in your packet. And if you look at 
image 9, this is a figure from the pediment on the House wing 
of the United States Capitol Building. We have lost the 
artistic and aesthetic value of the stone carvings that are in 
that pediment.
    And I think we shouldn't have. And if we would have made 
our investments and come to you earlier before our stone gets 
in this kind of condition, then we would have done a better 
job.
    So I guess to answer your question, when we have conditions 
like this where we are losing the historic integrity, we may 
not be addressing our needs fast enough, both in our ability to 
define them and to present them to you.
    Senator Shaheen. Mr. Ayers, I don't want to interrupt, but 
I did want you to describe a little bit what is on that 
picture, because everybody can't see it, so they can't 
appreciate the extent to which the figure has changed.
    Mr. Ayers. Thank you. This is a figure of a putto, or a 
baby, that is in the carving on the pediment of the House wing 
of the United States Capitol. And when you look at the 
photograph that we have available on our Web site and all of 
our social media accounts, and at the press table today, you 
will see that this piece of stonework has lost all of the 
features of its face, from weather and acid rain. You can no 
longer tell that it is anything other than an outline of the 
baby. It has lost its nose, lost its eyes, lost all of its 
facial features.
    Senator Hoeven. What is the size of that statue?
    Mr. Ayers. That may be 4 feet tall.
    Senator Hoeven. About 4 feet tall.
    So how indicative of the other buildings and similar 
figurines, or whatever you call them, how typical is that 
across our buildings?
    Mr. Ayers. I think it is typical. I didn't bring any 
photographs with me today of the Russell Senate Office 
Building, but I have seen the Russell building myself up close 
where this kind of stone deterioration has taken place there. 
It, certainly, has taken place in the Capitol with other 
photographs that I brought along with me today.
    And I think it is indicative of the condition across the 
campus.
    Senator Hoeven. Okay. I have some questions, but I am out 
of time. So I will turn it back to you.

                            DOME RESTORATION

    Senator Shaheen. Actually, I am hoping, perhaps, that we 
can take this opportunity, Mr. Ayers, for you to go through and 
just show us what each of these photos depict in terms of the 
Capitol dome restoration, because as Senator Hoeven mentioned, 
a picture really is worth 1,000 words. They do speak very 
dramatically to the need to do some of this maintenance, so 
that we don't lose these treasures forever.
    Mr. Ayers. I would be delighted to.
    So, certainly, the first one in everybody's packet shows 
what the Capitol dome will look like when there is scaffolding 
on it. That happens at the beginning of next month. You will 
see the scaffolding going up.
    Senator Shaheen. Are we on schedule for the scaffolding to 
go up?
    Mr. Ayers. Yes, ma'am, we are.
    And the white areas you see there is an enclosure where we 
will be taking off the dozen or so layers of lead-based paint 
that are on the skin of the dome.
    Secondly, the second picture in your package, photo number 
2, is what the dome will look like at night when it is 
scaffolded. And there will be work lights, so it will take on a 
very different appearance than it does today.
    The third photo is what the rotunda will look like when we 
install this protective netting in it. And this starts this 
Saturday over the 2-week district work period. By the 1st of 
May, this will be installed, enabling us to then move out at 
pace with work on the exterior.
    Senator Shaheen. How long will the netting be up?
    Mr. Ayers. The netting will be up for the exterior phase 
through its entire duration, so a year and a half.
    Senator Shaheen. So do we expect the scaffolding to be 
removed at the end of 2015?
    Mr. Ayers. In the fall of 2015 is when we expect that to 
come down.
    Senator Shaheen. Okay.
    Mr. Ayers. This is photograph 6 that shows the 
deteriorating condition of the paint and the cast iron, and the 
reason we need to do the work in the rotunda.
    Photograph 4 is particularly indicative of the water leaks. 
And the reason we need to do this work is that the dome has 
these 1,300 cracks in it, and those cracks are water leaks. And 
it is water that gets in and rusts, water that gets into the 
rotunda and causes this kind of deterioration, both on the cast 
iron as well as the painted surfaces.
    And then lastly, on the interior, I think photograph 5 is 
also indicative of the fact that these are water leaks, so this 
is the interior rotunda showing the staining from rust that is 
coming through from a water leak on the exterior of the dome.

                           STONE PRESERVATION

    Senator Shaheen. Thank you. That is very helpful and very 
dramatic.
    I think you missed slide 7, which is the exterior stone 
cracking and spalling.
    Mr. Ayers. Yes. So slide 7 doesn't show the dome project, 
but the Capitol Building stone preservation work that we think 
is an emerging priority that we spoke to the committee about 
last year, and the committee funded our first phases of this 
work last year. We are requesting a continuation of that work 
this year.
    You can see some of the significant cracking on the marble 
exterior of the Capitol Building and significant missing pieces 
of stone that have broken and cracked and fallen to the ground.

                         CONTRACTOR PERFORMANCE

    Senator Shaheen. Right. Can you just tell us, are there 
incentives or penalties that are a part of the construction 
contract on the dome project to ensure accountability?
    Mr. Ayers. Absolutely. There are a series of actions that 
we can take to help ensure that our contractors meet their 
performance requirements.
    Certainly, there are no penalties. Federal contracting and 
construction contracting, in general, is not a punitive 
measure. But we have systems in place to enable us to ensure 
that contractors are successful, and these include things like 
withholding payment when work is not complete to our 
satisfaction.
    Secondly, withholding retainage, so we can easily hold 10 
percent of a contract's value through the duration of the 
contract to ensure the Government's interests are protected.
    Thirdly, we have identified liquidated damages. And 
liquidated damages aren't punitive, but if the contractor 
doesn't finish work on schedule, the Government is going to 
incur costs because of that. And in our contracting, we are 
capable of charging the contractor those actual costs. And we 
think on the dome project, it is approximately $5,000 a day for 
us to oversee and manage. So, the contractor will be liable for 
that, if they don't finish on time.
    And then, of course, having a firm fixed-price contract.
    And lastly, the ability to provide a performance review of 
the contractor's work at midpoint and at the end of the 
contract are really important incentives for contractors 
seeking further Federal work in the future.
    Senator Shaheen. That is great. Thank you.

                  LIBRARY OF CONGRESS STORAGE MODULES

    My final question for you has to do with the storage 
modules--at least the first five that we included in the 
omnibus appropriation last year, and I wonder if you could give 
us an update on the progress of those. Are they on time, on 
budget, and do we assume they will be ready to accommodate the 
storage needs of the Library of Congress on the schedule we 
hoped?
    Mr. Ayers. I would be happy to.
    The first four have been funded and constructed and are 
complete. And I know the Library of Congress has fully occupied 
all four of those. We have received funding in our 2014 bill to 
start the construction of module five. I suspect that it will 
take 6 to 9 months in prepping for the construction work, then 
it will be under construction for 2 years. So that will take 
about 2.5 years from now to enable them to occupy module five.
    Senator Shaheen. So we expect it to be completed on time?
    Mr. Ayers. Yes, absolutely.
    Senator Shaheen. Okay. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.

                           PERFORMANCE BONDS

    A couple questions. Do you have performance bonds on the 
work for all your projects?
    Mr. Ayers. Yes, Senator Hoeven. We do require a performance 
bond and a payment bond on all of those. I should have 
mentioned that.

                            DOME RESTORATION

    Senator Hoeven. Are you putting together a video as you do 
all of this work to kind of track it, and so forth, so you have 
a record? I think there are a lot of uses, but a lot of people 
would be interested in seeing it at some point.
    Mr. Ayers. We absolutely are. We think that is really 
important. We have a number of things. Maybe I can mention a 
few of them that we are doing to get the word out.
    Like you, we think people are genuinely interested in the 
work, so we have a new exhibit in the crypt that has a video in 
it, and it talks about why we need to do the dome restoration 
work and how we go about doing it. We have a number of 
brochures that we have been distributing to visitors that come 
in. We have a great Web site that has a number of videos and 
photographs on it.
    We have a number of samples that show the method by which 
we are fixing the cracks that we are using in the Capitol 
Visitor Center as discovery carts. When children and adults are 
in the Visitor Center and they inquire about that, we can show 
them exactly how we are going about fixing these particular 
cracks.
    We are obviously making great use of our Facebook page, our 
Twitter account, YouTube channel, all of the social media 
venues, where we are pushing information out to the public as 
well.
    Senator Hoeven. I think that is all great, and, certainly, 
commend you for doing that. I think there will be a lot of 
interest.
    The netting, I mean, obviously that is designed for if a 
tool or material falls, to protect anyone below. Will that also 
be strong enough, if a person fell, from a safety standpoint, 
to hold them?
    Mr. Ayers. Absolutely. That is, certainly, one of the 
reasons for it. Our basic test requirement is they have to 
prove that it will withstand a 500 pound load dropped from the 
top, and they did pass that performance test 3 or 4 weeks ago.

                           ENERGY EFFICIENCY

    Senator Hoeven. So this question, you tell me if it is an 
area that you feel you don't want to go into, and if you don't, 
that is fine. But Chairman Shaheen has a bill with Senator 
Portman, Shaheen and Portman, which I know you are well aware 
of. We have had some dialogue on cogen and so forth.
    But in that bill, also, I have an amendment that goes to 
section 433 in the code, and it is about using natural gas in 
Federal buildings. And I am just wondering, certainly, we want 
to encourage the use of renewables and so forth, but is it 
realistic, from a cost-effective standpoint, to be able to 
build and store hot water facilities, and heat and cool without 
natural gas? Again, if you feel like it gets you into an area 
you don't want to comment on, just say so.
    But I think there has been some pushback from architects on 
this issue, and I am trying to better understand that, when I 
just don't understand how we are going to cost-effectively do 
it.
    Here we are talking about a $1.4 billion backlog. We are 
talking about how we have limited resources, but we have just 
incredible architecture here that we want to preserve. So we 
have to make our dollars go as far as they can.
    So I understand the desire to use renewables and be 
innovative and creative and all of those things. But at the 
same time, I think we have to be realistic in how we do this if 
we are going to really use these resources in the best way, as 
stewards of public dollars.
    So your thoughts here on use of natural gas in 
refurbishment, renovation, redoing the mechanical systems in 
existing facilities and building new facilities.
    Mr. Ayers. Well, let me approach my response this way, that 
we think investments need to pay dividends. And with the 
backlog that we face, we don't think making an investment that 
doesn't pay dividends is a smart thing to do. So, certainly, 
with today's price of natural gas at maybe $13 per MMBTU, which 
is half the cost of fuel oil and much more than half the cost 
of electricity, we think it is a wise investment. And that is 
why, ultimately, a gas-fired turbine cogeneration system rose 
to the top in our analysis.
    And for us, we have looked at a variety of investments 
across the Capitol campus, from solar applications, among many 
others, and we just can't get them to pay back like our 
investments in natural gas. Because the price of natural gas is 
so low today, we are able to make a positive business case for 
them to pay back. And we think that is the smart way to make 
investments.
    Senator Hoeven. Thank you.
    Those are all questions I have.
    Senator Shaheen. Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.
    Really quickly, first of all, I want to thank you and your 
staff for your hard work in, again, taking such great care of 
the campus. I know it is a lot of hard work, but it is so very, 
very important.
    Mr. Ayers. Thank you.

                         PROJECT PRIORITIZATION

    Senator Boozman. One thing, just a quick question, how many 
projects on your list, which is a long list, how many require 
attention due to code violations identified by the Office of 
Compliance? And how would this budget request address the list 
of areas of immediate concern? I know that you have run into 
some problems with code violations. How does this budget 
address what you are trying to do?
    Mr. Ayers. So our prioritized list of 21 projects that we 
recommend funding for, that you will see in our budget book, 
behind that, you will see a long list of projects that we don't 
recommend be funded in this fiscal year.
    Of those 21 that we recommend be funded, the top four have 
citations from the Office of Compliance against them, and that 
is one of the reasons that they have risen to the top. And 
those citations are backed up by violations of building codes, 
essentially. So those top four add up to nearly $20 million of 
investment.
    Looking further down the list, there are a number of other 
projects that are safety related, and that may not necessarily 
be code violations. I look at the small arms range in the 
Rayburn building and there are some significant lead issues 
from the weapons and ammunition used there. And down to 20, the 
kitchen exhaust ductwork in the Dirksen Building, here in this 
building, I think it does have code violations that need to be 
fixed.
    So there are a few in there. Some of them have risen to the 
top. Others are further down the list.
    Senator Boozman. I appreciate that. I think it just 
illustrates the fact that so many of the things we simply have 
to get done.
    Thank you, Madam Chair.
    Senator Shaheen. Thank you, Senator Boozman.
    Does anyone have any other questions for Mr. Ayers?
    Okay, thank you very much for your testimony.
    Mr. Ayers. Thank you.
    Senator Shaheen. We look forward to continuing to work with 
you as we put together your budget request, and I will ask the 
next panel to please come up.
    Again, thank you very much to our panels.
    And I will ask, Dr. Billington, if you will begin your 
testimony.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. DR. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS, LIBRARY OF CONGRESS
    Dr. Billington. Thank you very much, Madam Chair, Senator 
Hoeven, Senator Boozman, other members of the subcommittee.
    I very much appreciate the opportunity to present the 
Library's fiscal 2015 budget and share with you some of the 
important activities and initiatives that the Library staff is 
working on in support of the Congress and the American public.
    I thank you, first of all, for the enduring support that 
this committee and the Congress, in general, have shown the 
Library. We look forward to working with you to realize the 
full potential of the world's greatest library and America's 
oldest Federal cultural institution for the creative future of 
the United States in our fast-changing world.
    The Library's fiscal 2015 budget request represents a $14.2 
million, or 2.3 percent, increase over the Library's fiscal 
2014 funding level. This request includes no program increases 
for the Library and is exclusively for mandatory pay and price 
level increases anticipated for fiscal 2015.
    The Library of Congress has the largest and most wide-
ranging collection anywhere in the history of the world, both 
of the world's recorded human knowledge and of the unique 
cultural and intellectual creativity of the American people.
    This is an enormous and growing asset for the United States 
of America, in an increasingly knowledge-dependent world.
    It was created and has been sustained by the Congress of 
the United States for 214 years. It has encouraged and 
protected and preserved America's free creativity through the 
work of the copyright office since 1871. It has also been 
Congress' primary research arm through the Congressional 
Research Service for 100 years and for 182 years through the 
Nation's largest law library.
    Over the past several years, the Library has been operating 
with progressively decreasing resources. Our total 
appropriation declined in excess of 12.5 percent from the 
$684.3 million in fiscal 2010 to $598.4 million in fiscal 2013.
    Meanwhile, between fiscal years 1992 and 2014, the Library 
built our entire current massive digital outreach alongside our 
still growing analog library.
    However, during the same period, our FTEs decreased by 
1,389 FTEs, a 30.5 percent loss. So we are continuing to do 
very much more with less.
    Precisely because our staff has such one-of-a-kind skills, 
we minimized making budget cuts in our staff pay budget, 
administering only a 3-day Library-wide furlough in fiscal 
2013. Nonetheless, substantial attrition continues and is 
resulting in growing knowledge gaps.
    Moving into fiscal 2014 with the prospect of continuing 
sequestration budget reductions, the Library was deeply 
concerned about absorbing additional cuts to our core program 
activities or burdening our staff with another series of 
furlough days.
    As a result, the Library very much welcomed receiving some 
relief in the fiscal 2014 omnibus appropriation, including the 
partial restoration of sequestration reductions and also 
funding, particularly for the constructing of Fort Meade's 
module five, which was just mentioned in the preceding 
testimony, which will provide critical storage space for 
preserving and making accessible the Library's incomparable 
collections.

                        PLANNING FOR THE FUTURE

    Now, despite the challenging budget environment, the 
Library's uniquely experienced, dedicated, and multitalented 
staff is looking boldly into the future for what we can do 
better and more inexpensively for America in the rapidly 
changing, unpredictable times that clearly lie ahead.
    We are now beginning to draw up a Library-wide futures 
program, which will be completed in September of this year and 
implemented in fiscal 2015. It is being entirely crafted 
internally by the Library staff. It is one-of-a-kind personnel 
with no exterior expense for consultants.
    We will keep recommendations as cost-neutral as possible, 
and we will discuss the program in the coming months with this 
committee and the other subcommittee on appropriations, as well 
as the Joint Committee on the Library of Congress, which is the 
oldest joint committee of the Congress itself.
    Madam Chairwoman, the Congress of the United States has 
been the greatest patron of the Library in the history of the 
world. Each year, the Library is privileged to serve every 
Member of Congress, every Congressional committee, and millions 
of Americans, often in ways that would otherwise be unavailable 
to them.
    This Library here on Capitol Hill, onsite as it were, is 
quite simply the best place in the world to conduct advanced 
research in the study of humanity, which spans multiple 
languages and formats.
    And the free Library of Congress online is a uniquely high-
quality treasury of America's and increasingly much of the 
world's cultural achievements for the lifelong education and 
the quiet inspiration of everyone everywhere.
    All of the Library's present and future work, first of all, 
must be directly important to the United States, and not just 
to our own institution; and, secondly, it will serve the public 
in ways that no one else can do as well or better.
    The Library embodies and advances, we like to think, 
distinguished members of the committee, a distinctive American 
ideal of a knowledge-based democracy, an inclusive knowledge-
based democracy. And we will be grateful for your consideration 
of our budget request for fiscal 2015.
    Thank you all again for your good counsel and support for 
the Library.
    [The statement follows:]
           Prepared Statement of Hon. Dr. James H. Billington
    Madam Chairwoman, Senator Hoeven, and members of the subcommittee:
    The Library of Congress fiscal 2015 budget request represents a 
$14.2 million, or 2.3 percent increase over the Library's fiscal 2014 
funding level. This request includes no program increases for the 
Library--and is exclusively for mandatory pay and price level increases 
anticipated for fiscal 2015.
    The Library of Congress has the largest and most wide-ranging 
collection anywhere, both of the world's recorded human knowledge and 
of the cultural and intellectual creativity of the American people. It 
was created and has been sustained by the Congress of the United States 
for 214 years. And the Library has encouraged, protected, and preserved 
America's free creativity through the work of the Copyright Office for 
143 years. The Library of Congress has been, through its Congressional 
Research Service (CRS), the Congress' primary research arm for 100 
years--and through its Law Library of Congress for 182 years
    Over the past several years, the Library has been operating with 
progressively decreasing resources. Our total appropriation has 
declined in excess of 12.5 percent, from $684.3 million in fiscal 2010 
to $598.4 million in fiscal 2013. During the entire 23 years (fiscal 
years 1992-2014) during which the Library built our now massive digital 
outreach alongside our still growing analog library, our full-time 
equivalent employees (FTE's) decreased by 1,389.
    We are doing more with less. Precisely because our staff have such 
one-of-a-kind skills, we minimized making budget cuts in our staff pay 
budget, administering only a 3-day library-wide furlough for all staff 
in fiscal 2013. Nonetheless there has been substantial attrition, 
resulting in growing knowledge gaps.
    Moving into fiscal 2014 with the prospect of continued 
sequestration budget reduction, the Library was deeply concerned about 
absorbing additional cuts among its core program activities or 
burdening our staff with another series of furlough days. Thus, the 
Library very much welcomed receiving some relief in the fiscal 2014 
Omnibus Appropriation, including the partial restoration of 
sequestration reductions and funding for the construction for Ft. Meade 
Module 5. Constructing Module 5 will provide critical storage space for 
preserving and making accessible the Library's incomparable 
collections. We also look forward to working with the Committee to 
develop the longer-range funding plan for modules 6 through 13 that are 
part of the Master Plan for the Ft. Meade Complex.
    Despite the challenging budget environment, the uniquely 
experienced, dedicated and multi-talented staff of the Library is 
looking boldly into the future for what we can do better and more 
extensively for America in the rapidly changing, unpredictable times 
that lie ahead.
    Our remarkable staff is participating--at a variety of levels, in 
addition to their regular work--in a Futures Program for the Library. I 
recently wrote our staff that, ``our shared task in shaping this 
program is to demonstrate that the Nation's oldest Federal cultural 
institution has the unique resources and people to become one of 
America's most innovative.''
    The Futures Program is a Library-wide effort to define an action 
plan for the Library of Congress in the 21st century by September of 
this year. It seeks to find new synergies and economies while bringing 
digital and traditional services closer together. It will provide a 
blueprint for streamlining and developing the Library of Congress both 
onsite and online.
    We have already received bold new ideas from 72, mostly younger, 
staff members on eight teams. Those teams are now being succeeded by 
three committees covering the key Library-wide issues of (1) mediating 
knowledge through a new type of Knowledge Navigator, (2) developing a 
coherent and accountable overall digital strategy, and (3) defining 
appropriate new forms of collaboration with outside organizations and 
local communities.
    We will be consulting actively with this Subcommittee as well as 
the Joint Committee on the Library about new initiatives we may be 
implementing as the most effective and cost-neutral approach to further 
the Library's mission for the 21st century. While we work on the 
Futures Program and the future of the Library, the Library continues to 
bring great value to the Congress and the Nation.
    At the direction of the Speaker's Office and the Clerk of the 
House, the Library both led and participated in a number of initiatives 
over the past year to enhance public availability and transparency of 
legislative information. We have upgraded Congress.gov, which is now 
surpassing our popular THOMAS website in both high-level functionality 
and ease of use on all types of devices.
    The Library not only collects, preserves, and provides web-based 
information, but actively participates in social media outlets (blogs, 
Facebook pages, YouTube tutorials, and Twitter feeds) that share our 
collections and staff expertise with thousands of Americans every day. 
Our pioneering work on the Twitter collection has given us valuable 
hands-on experience in organizing big data for research and 
scholarship. We expect to make the 2006-2010 portions of the 
collection--21 billion tweets--available in June within the Library for 
research use by the public.
    The Library now manages 6.5 petabytes of digital information and 
158 million analog items. Millions of the digital primary materials in 
our collections are available onsite or online. This material is widely 
used in K-12 education and by life-long learners throughout America.
    Our World Digital Library continues to grow in popularity in 
America and beyond, with 178 partners from 80 nations that are 
providing the Library with high quality primary documents of the 
world's greatest treasures--with expert curatorial commentary in seven 
languages. This project helps Americans understand and value other 
cultures. Young ``digital native'' users abroad appreciate that America 
is taking the lead in the ``virtual repatriation'' of their own 
heritage.
    Building on the Library's vast collection of materials on the early 
Americas, Mexico, and Central America, we conducted in December 2013 a 
2-day ``Celebration of Mexico,'' which brought to the Library a wide 
range of cultural luminaries with whom we plan to work more closely in 
the future.
    CRS, which is celebrating 100 years of service to the Congress, 
partnered with other Library units and the Government Printing Office 
(GPO) to publish the centennial edition of the Constitution of the 
United States of America: Analysis and Interpretations (known as The 
Constitution Annotated) on Constitution Day, September 17, 2013.
    CRS analysts and information professionals served every Member's 
office on all major issues on the legislative agenda. Economists, 
policy analysts and attorneys responded with analyses and consultations 
on the complex issues surrounding the Government shutdown, the debt 
ceiling and sequestration. Much of this work was on a short-turnaround 
basis, given the fast-moving events.
    Collaboration across several CRS divisions was necessary to support 
Congress' oversight of implementation of the Affordable Care Act, 
analyze legislative options to amend the law and describe the impact of 
the developing jurisprudence on challenges to some of the Act's 
provisions. Congressional options in light of events in Egypt, Syria 
and Iran were addressed in CRS reports, memoranda and briefings.
    Working closely with the House Judiciary Committee, the Register of 
Copyrights helped commence a comprehensive Congressional review of the 
Nation's copyright laws, for the purpose of assessing issues resulting 
from the vast changes over the past 20 years in the way that creators 
disseminate and consumers access music, books, films and software. The 
Copyright Office also updated its Compendium of Copyright Office 
Practices, which is the authoritative source of registration procedures 
relied upon by Copyright Office staff, the public and the courts. The 
revision is undergoing external review and will be published in 2014.
    The Law Library has improved its coverage of key foreign 
jurisdictions of interest to Congress, and has acquired rare and 
important legal materials including one of the first books on law 
printed in the new world (Mexico 1556), and a collection of rare 17th 
century German legal dissertations. Private and individual donors have 
generously supported the Law Library's bringing the Lincoln Cathedral 
1215 version of the Magna Carta back to the Library of Congress for its 
exhibit on the 800th anniversary of the signing of this seminal 
document.
    We have been privileged this past year to have organized and hosted 
exclusively for Members of Congress a new series of major evening 
conversations with outstanding experts on our greatest early Presidents 
(the most recent with A. Scott Berg on Woodrow Wilson) for 125 members 
from both houses and both parties. For these evenings we display the 
Library's original documents of the Presidents. Our generous benefactor 
for this series, David Rubenstein, then asks the expert searching 
questions, followed by extensive comments and questions by the Members. 
All Members of Congress are invited to these memorable evenings. The 
next event will be held in June on Theodore Roosevelt.
    A FutureBridge Program that began in October 2013 pairs our young 
professionals with a senior colleague who can mentor and share his or 
her one-of-a-kind knowledge and experience. Annually, the Library 
brings college and graduate students into units throughout our 
institution through the Knowledge Navigators/Junior Fellows programs. 
During their time as apprentices at the Library, these students bring 
more of our materials into the stream of knowledge and often become 
librarians themselves.
    This year the Library added another new program in its multi-
pronged efforts to address illiteracy thanks to a generous gift from 
David Rubenstein. The Library awarded three prizes and identified best 
practices in innovative programs that open up the world of reading to 
the illiterate in America and globally. This program is part of the 
Library's commitment to life-long learning that includes our annual 
National Book Festival, our Nobel-type Kluge Prize for Lifetime 
Achievement in the Study of Humanity, our Young Readers' Center on 
Capitol Hill, and our national Teaching with Primary Sources Program.
    Madam Chairwoman, the Congress of the United States has been the 
greatest patron of a library in history. Each year, the Library is 
privileged to serve every Member of Congress, every Congressional 
Committee, and millions of Americans, often in ways that would 
otherwise be unavailable to them. All of the Library's present and 
future work must and will be (a) directly important for the United 
States and not just for our own institution, as well as (b) serve the 
public in ways no one else can do as well or better.
    The Library embodies and advances the distinctly American ideal of 
a knowledge-based democracy. And we will be grateful for your 
consideration of our budget request for fiscal 2015.
    Madam Chairwoman, Senator Hoeven, and Members of the Subcommittee, 
I thank you all again for your good counsel and support for the 
Library.
                                 ______
                                 
Prepared Statement of Mary B. Mazanec, Director, Congressional Research 
                                Service
    Madam Chair, Senator Hoeven, and members of the subcommittee:
    It is a pleasure to appear before you today to present the fiscal 
2015 budget request for the Congressional Research Service (CRS). In 
just a few months, CRS will mark its centennial. CRS began modestly 
with the enactment of the legislative branch appropriations bill on 
July 16, 1914 providing funds for the Librarian of Congress to employ 
persons to prepare indexes, digests and compilations of law that may be 
required for the Congress. Senator Robert LaFollette and Representative 
John Nelson, borrowing from concepts developed by the Wisconsin 
legislative reference bureau and the New York State Library, were 
leaders in the effort to create a reference unit for the Congress 
within the Library of Congress. Legislative reorganization acts in 1946 
and 1970 increased the responsibilities of Congress' legislative 
support agency that are embodied in today's Congressional Research 
Service. With this rich history, CRS enters its second century 
committed to the values of objectivity, non-partisanship and 
authoritativeness that have always guided its work for the Congress.
                          support for congress
    Analysis and Information.--CRS analysts and information 
professionals addressed a wide range of complex and controversial 
issues in support of Senators and committees this past year.
    As the fiscal year ended, CRS assisted lawmakers with information, 
analyses, and consultations on past Government shutdowns; shutdown 
planning by Federal agencies and the process of determining which 
Government activities could continue during a funding lapse. CRS 
advised the Congress on legislative process questions relating to the 
enactment of appropriations and examined potential ramifications of a 
shutdown on congressional operations.
    CRS analysts tracked the evolving budgetary landscape over the 
course of the past year, explaining processes and trends involved with 
sequestration and the implementation of the Budget Control Act. 
Strategic priorities in the fiscal 2014 defense budget were also 
analyzed and experts assessed long-term trends in defense spending, 
analyzed military procurement, and provided consultative support on 
costs associated with various force structure options that could result 
from the expected reduction in U.S. forces over the next decade.
    Following the publication in the United States and Great Britain of 
information on the collection of data on telephone and Internet 
communications by the National Security Agency, Congress began debating 
the proper scope of the surveillance authorities provided under the 
Foreign Intelligence Surveillance Act (FISA). Senate and House 
committees sought assistance from CRS. CRS attorneys analyzed the 
constitutional implications of the disclosed activities and advised on 
proposed amendments to the FISA. Analysts examined the need to balance 
the level of intelligence activities with difficult budget choices, the 
domestic use of intelligence, as well as civil liberty and information 
security issues. Proposals to introduce more transparency and provide 
the opportunity to present counter arguments before the FISA court were 
also analyzed.
    CRS also provided analyses of legislative proposals that would 
modify or repeal the Affordable Care Act (ACA). The implementation of 
the Act continued throughout the year prompting CRS support on a 
variety of issues, including legal analyses of enforcement of private 
health insurance market reforms, contraceptive coverage and the 
migration of Members and certain congressional staff to the new 
healthcare marketplaces.
    Experts in Senate procedure and the rules of the Senate provided 
advice and analysis during the debate on changing the chamber's cloture 
rules concerning certain executive appointments. Historical data on 
nominations and Senate consideration of nominees were also developed. 
The recess appointment power and the role of the Senate in approving 
executive nominations is now before the Supreme Court, and CRS 
attorneys and analysts provided analysis and information on that 
contentious issue.
    Immigration reform continued to generate great interest and a 
variety of legislative approaches. CRS assisted with development of 
comprehensive immigration reform and border security bills in the 
Senate. Analysts addressed proposals to increase border security and 
immigration enforcement, expand verification of employment eligibility 
and worksite enforcement, revise nonimmigrant visa categories and legal 
permanent immigration, and legalize some unauthorized aliens currently 
residing in the United States.
    Both the Senate and House considered separate omnibus bills to 
replace the expiring 2008 farm bill. CRS agricultural specialists 
provided analysis of various legislative proposals regarding farm 
commodity support, conservation, trade, rural development, nutrition, 
credit, energy, livestock, and organic agriculture. Proposals to reduce 
Supplemental Nutrition Assistance Program (SNAP) (food stamps) costs 
were also part of this debate. CRS responded by providing background 
information on SNAP program rules, as well as analyses of a number of 
the cost-saving proposals such as restricting SNAP ``categorical 
eligibility'' and changing benefit calculation rules for certain 
recipients of energy aid. CRS provided analysis of the legislation 
shortly after its enactment in early February.
    Congress expressed interest in the impact on energy policy of 
increased U.S. natural gas supply and the possibility of exporting 
liquefied natural gas (LNG). The Department of Energy approved permits 
to export LNG to non-Free Trade Agreement countries, with dozens of 
other applications pending. LNG exports were the subject of a CRS 
seminar in March. Throughout the year CRS analysts responded to 
numerous requests for memoranda, briefings, and consultations on LNG.
    CRS experts addressed numerous country-specific and regionally 
focused issues posed by the continuing turmoil in the Middle East. 
Analysts assisted the Congress as it dealt with civil war in Syria and 
whether and how the United States should intervene in that conflict, 
particularly following the use of chemical weapons by the Assad regime. 
The Congress looked to the Service for information and analysis on the 
nature and size of Syria's chemical weapons stockpile and delivery 
capabilities as well as the implications of Syria joining the Chemical 
Weapons Convention. Congress sought legal assistance regarding the 
potential use of force by the United States against Syria in response 
to chemical attacks on Syrian civilians. CRS responded by providing 
briefings and analysis on declarations of war and authorizations for 
the use of force, as well as congressional authority to limit military 
operations. CRS also analyzed the agreement that was entered into to 
dispose of Syria's chemical weapon stockpile. CRS offered ongoing 
support following Mohammed Morsi's overthrow in Egypt and the 
increasing unrest and polarization between government forces and Muslim 
Brotherhood sympathizers, including analysis of U.S. aid to Egypt and 
future political, economic, and security ties. During diplomatic 
efforts surrounding Iran's nuclear program and the short-term agreement 
entered into by the parties, CRS advised on the technical aspects of 
Iran sanctions laws, analyzed how those laws were implemented and what 
effects they had on Iran's economy, as well as providing ongoing 
analysis of the Iranian political arena, foreign policy, and nuclear 
programs.
    Technology Initiatives.--CRS contributed to continuing development 
and daily operations of the next generation legislative information 
system platform and services (beta.congress.gov). This work--performed 
by a multidepartment team in the Library--is a significant component of 
a Library-wide strategic initiative that will replace two legacy 
legislative information systems (LIS and THOMAS) with a single, modern 
system. CRS provided data analysis, subject matter expertise 
consultation, system testing, user testing, coordination of data 
partner relationships, and support for congressional users.
    Several enhancements to the CRS Web site (CRS.gov) occurred during 
the past year. The search experience was improved, with full-text 
search, enhanced ability to filter search results by topic, author, 
date, content type ``facets,'' and a feature that displays search 
results in a manner that facilitates client contact with relevant 
analysts, attorneys, and information professionals. CRS also modified 
its Web site layout in light of the proliferation of mobile devices on 
Capitol Hill in order to adapt to the smaller mobile device screens, 
and added improvements to support touch-screen users who cannot 
effectively execute desktop-specific commands.
    CRS also introduced streaming videos to the CRS Web site in 
addition to its menu of seminar DVDs. At the end of the fiscal year, 10 
streaming videos were available to the Congress on topics including 
immigration reform, border security, natural hazards and disasters, 
financial challenges to the U.S. Postal Service, major cases from the 
recent Supreme Court term, and the fiscal year 2014 defense budget. 
This year, CRS will augment its video presence and also include on-
demand videos of popular CRS policy seminars.
    CRS Policy Insights, a new product type modeled on the CRS Legal 
Sidebar, is being introduced in response to client feedback for 
shorter, succinct products that are published quickly to address fast-
moving public policy issues. This product line is expected to appear in 
early spring. A two page ``In Focus'' product line is also under 
development. These short briefing documents are designed for Members 
and staff who need abbreviated analysis about current policy issues 
facing the Congress.
    We are also refreshing the home page of the CRS Web site to 
modernize its look and feel and facilitate user access to products and 
services. Many of the new products will be highlighted and users should 
find the site easier to navigate. Following on Web layout improvements 
that we made last year, the home page refresh will also aid mobile 
users of the web site. The changes in our product line and the web site 
updates are part of our continuing efforts to provide a menu of 
products and services that are responsive to client needs and the 
demands of the legislative process.
                          budget opportunities
    We appreciate the opportunity that the increased fiscal 2014 
funding gave us to begin to fill some critical gaps in our analytical 
and information professional ranks. The fiscal 2015 budget request of 
$108,382,000 only includes increases for mandatory pay and price level 
changes.
    In addition to postings for analysts and information professionals, 
we have begun recruiting a cadre of research assistants to support 
analysts and facilitate their analytical work. This pool of researchers 
will enable analysts to focus on higher level analysis. The skill sets 
being sought in these research positions will also contribute to a 
broader mix of products and services available to congressional staff. 
CRS is continuing to explore the composition of its workforce to 
achieve efficiencies and best serve client demand.
    The increased funding also enabled us to devote resources to 
technology projects that we had deferred. Two systems critical to our 
work for the Congress--our authoring and publishing application and our 
systems which intake and manage congressional requests--need to be 
modernized. We will likely utilize both in-house and contracted 
expertise to achieve these objectives.
                        crs anniversary planning
    Planning for commemorating the centennial of CRS in 2014 continues. 
Among the planned events are a conference highlighting the Congress and 
the challenges of governance in a global era, a centennial publication 
highlighting CRS history, and a Library exhibition featuring objects 
marking milestones in CRS development throughout the century. The 
centennial events center around the 100th anniversary of the enactment 
of the legislation that provided for the creation of CRS on July 16, 
2014. The symposium and evening reception are being co-sponsored with 
CRS by the Former Members Association and are funded through privately 
raised individual and foundation support.
            centennial edition of the constitution annotated
    CRS partnered with other Library units, including the Law Library 
of Congress, and the Government Printing Office (GPO) to publish the 
centennial edition of The Constitution of the United States of America: 
Analysis and Interpretation, (known as The Constitution Annotated and 
as CONAN) on Constitution Day, September 17, 2013. The document was 
produced in both print and digital formats (managed by GPO), and as a 
free Apple iStore application (managed by the Library of Congress). An 
Android application is forthcoming. A seminar on educating the public 
on the Constitution to which Supreme Court Justices have been invited 
is scheduled for September as part of the events surrounding the 
centennial of CRS.
                               conclusion
    This centenary year is an opportunity to both observe this 
important occasion in the history of the Congressional Research Service 
and to confirm our commitment to the importance of authoritative and 
objective research and analysis to the work of the Congress. We 
appreciate the consistent support of the committee over the years and 
look forward to continuing to be the Congress' most trusted source for 
the information and analysis that is necessary for an informed national 
legislature.
                                 ______
                                 
  Prepared Statement of Maria A. Pallante, Register of Copyrights and 
                Director, United States Copyright Office
    Dear Madam Chairwoman, Ranking Member Hoeven and members of the 
subcommittee: I appreciate the opportunity to present written testimony 
in support of the United States Copyright Office. The Office 
administers the copyright law and related provisions of title 17, 
provides expert policy assistance to the Congress, and provides 
significant support to the U.S. Trade Representative, Department of 
Justice and other Federal departments engaged in matters of national 
and international intellectual property.
    We are in the midst of an especially significant period for the 
copyright system and the Copyright Office. The Congress is leading a 
comprehensive review of the Nation's copyright laws, to assess how well 
they are working in the current digital environment.\1\ In support of 
this effort, the Copyright Office is leading multiple studies, public 
roundtables and interagency discussions on a variety of urgent issues, 
from the statutory and regulatory framework for music licensing to the 
scope of exclusive rights for authors to the problem of orphan works. 
In response to concerns about the increasing costs of Federal 
litigation, the Office delivered a major report to the Congress last 
year regarding the creation of a small claims mechanism within the 
copyright law (and Copyright Office).
---------------------------------------------------------------------------
    \1\ See Press Release, U.S. House of Representatives Committee on 
the Judiciary, Chairman Goodlatte Announces Comprehensive Review of 
Copyright Law (Apr. 24, 2013), available at http://judiciary.house.gov/
news/2013/04242013_2.html (``There is little doubt that our copyright 
system faces new challenges today. . . . Even the Copyright Office 
itself faces challenges in meeting the growing needs of its customers--
the American Public.'').\1\
    See also The Register's Call for Updates to U.S. Copyright Law: 
Hearing before the Subcomm. On Courts, Intellectual Prop. & the 
Internet of the H. Comm. On the Judiciary, 113th Cong. (2013)(statement 
of Maria A. Pallante, Register of Copyrights and Director, U.S. 
Copyright Office).
---------------------------------------------------------------------------
    The Copyright Office is equally engaged in examining the state of 
its own operations, keeping in mind the increasing sophistication of 
our customers and the copyright marketplace. We have engaged robustly 
with stakeholders regarding both their frustrations and their 
recommendations regarding our services. Through this process, it has 
become clear that the Copyright Office will require both small and 
large improvements in the years ahead, and in some cases may need to 
entirely rework the ways in which it administers the copyright law, to 
better reflect the ways in which creative content is created, 
delivered, accessed and protected in digital environments.
    These challenges are both exciting and daunting. For example:
    (1) The copyright registration system, now accessible online, 
requires a faster and more capable interface, secure repositories, 
global identification standards, and submission practices that match 
the manner in which film, photographs, books, music, and software are 
created and licensed in the digital environment;
    (2) The copyright recordation system (in which assignments, 
licenses and other copyright documents are publicly indexed) is still a 
paper-based process and must therefore be redesigned, automated, and 
connected through metadata and APIs to the registration system and 
outside registries;
    (3) The directory of designated agents (for Internet service 
providers seeking certain protections of the Digital Millennium 
Copyright Act) requires an online interface, updated regulations and 
sophisticated search ability; and
    (4) The database of pre-1978 copyright records is partially 
digitized but must be integrated into a useful chain of title and 
public record.
    The services of the Copyright Office affect the legal rights and 
economic interests of both copyright owners and the users of their 
creative content. These are important global interests. A recent study 
found that the core copyright industries--those whose primary purpose 
is to produce and distribute creative works--accounted for nearly 6.5 
percent of the U.S. domestic gross product in 2012, exceeding $1 
trillion for the first time.\2\ These industries also directly and 
indirectly employ 11.1 million workers, or about 8 percent of the U.S. 
workforce. Copyrighted works also remain one of the country's most 
economically valuable exports: together the sound recording, motion 
picture, software, and publishing industries sold works worth $142.0 
billion to overseas markets, far more than either the aerospace or 
pharmaceutical industries.\3\
---------------------------------------------------------------------------
    \2\ Stephen E. Siwek, Copyright Industries in the U.S. Economy: The 
2013 Report (2013) (prepared by Economists, Inc. for the International 
Intellectual Property Alliance), available at http://www.iipa.com/pdf/
2013_Copyright_Industries_Full_Report.PDF.
    \3\ Siwek, supra, at 16.
---------------------------------------------------------------------------
    The Copyright Office is an important institution and it has served 
the Nation well since 1897. Nonetheless, the changes that have occurred 
in the copyright marketplace in recent years are like no others in the 
history of copyright law. As a result, our customers are appropriately 
calling for a more nimble and forward-thinking Copyright Office--one 
that is more technologically savvy and interoperable with the 
marketplace it serves.
    In terms of funding, I believe that the Copyright Office produces 
an outsized impact in proportion to its budgetary needs. But the 
current funding level is not sustainable and I look forward to working 
with the Congress to find solutions. Aside from additional appropriated 
dollars, which have always been critical to the Copyright Office, these 
might include mechanisms to allow for more flexibility in regard to 
both the recovery and spending of fee revenue.
              challenges of the current fiscal environment
    The Office appreciates the partial restorations that the Committee 
provided to the Office in the 2014 appropriation. However, 
appropriations are still down about 7 percent from 2010 levels, and 
fiscal 2014 have been an especially challenging year because fee 
revenue in the first quarter was the lowest it has been in 5 years. 
Moreover, implementation of a new fee schedule in May will make revenue 
somewhat unpredictable for the remainder of the fiscal year.
    Ideally, the Office would be able to rely on its reserve fund to 
make up the shortfall. The reserve fund is derived principally from fee 
collections that exceed the spending authority granted for a particular 
year. But in recent years, fee collections have regularly fallen below 
our spending authority. As a result, the reserve has fallen below and 
remained under $5 million. This may seem a relatively small figure, but 
these funds may nonetheless make the difference when it comes to 
patching an IT system or staffing an important study for the Congress. 
The unpredictability of fee revenue makes it critical that the 
Copyright Office maintain sufficient reserve funds to deal with 
contingencies effectively.
    The accumulated results of budget cuts and unpredictable revenue 
income have taken a toll on the Office's ability to provide critical 
services at the level the public demands. Declining budget support has 
impacted or will impact the Office in the following ways, among others:
    Staffing: Although the Office is understaffed, it has been forced 
to reduce new hiring. As of this writing, the Office is projected to 
utilize approximately 387 full-time equivalent employees (FTEs) in 
fiscal 2014--down almost 100 people since 2007.
    We have an especially acute shortage of seasoned lawyers--that is, 
the experienced legal experts who can participate in or lead complex 
discussions. This is doubly problematic now because the Congress is so 
substantively involved in domestic copyright policy (in a manner that 
has not been the case in many years) and is thus drawing heavily (and 
appropriately) on Copyright Office lawyers for studies, preparatory 
work and leadership. Lawyers also support the significant statutory 
interpretation and regulatory work that comes with administering the 
registration program, public recordation of transfers and related 
documents, mandatory deposit provisions, and statutory licenses.
    Adequate staff levels are essential to the integrity of the 
registration program--both its accuracy and efficiency. A copyright 
certificate of registration is prima facie evidence of validity of the 
copyright and of the facts stated therein, including the scope of the 
claim and ownership, and is given significant deference by Federal 
courts. As a result of fewer staff in the registration program, the 
Office is beginning to see increases in registration processing times--
meaning that the public is waiting longer to have their registration 
applications processed.
    Travel Budgets: The Office's lean budget has left us unable to 
fully and consistently participate in bilateral and multilateral treaty 
negotiations, as well as important intergovernmental meetings. For 
example, the Office has been unable to attend all of the relevant 
meetings of the Standing Committee on Copyright at the World 
Intellectual Property Organization in Geneva and has been unable to 
attend all of the trade negotiations pertaining to intellectual 
property in the Pacific Rim. This is unfortunate because the framework 
for copyright law is largely being defined in the international arena, 
and the United States is in the midst of an extremely busy period of 
negotiations involving trade and treaty obligations.
    IT Projects: The IT of the Copyright Office is hosted by and 
managed through the Library but the Copyright Office is responsible for 
the development and maintenance costs of its core systems. Technology 
infrastructure affects all of the Office's key services, and is the 
single greatest factor in its ability to administer copyright 
registration, recordation services, and statutory licenses effectively. 
It will be the decisive factor in building new services and migrating 
old ones into the twenty-first century.
                    fiscal 2013 and 2014 activities
Special Projects
    Last year marked the conclusion of many of the projects outlined in 
the Priorities and Special Projects of the United States Copyright 
Office, our 2-year effort to identify needed improvements to the 
quality and efficiency of the Office's services in the twenty-first 
century. Two of these projects rate special mention: the Technical 
Upgrades Project, and the Compendium Rewrite.
    The Copyright Office's Technical Upgrades Project focused on 
identifying issues relating to the reliability, security and search 
ability of Office's records, as well as the ease of use and convenience 
of our online services. Public response to the Office's Federal 
Register notice called attention to shortcomings with the digital 
repository, user interface, quality of data and public records, 
standard identifiers, information architecture and infrastructure, and 
customer experience. Many commenters cited basic frustrations, 
including the need to access previous applications for reference, and 
the need for enhanced features, such as customized dashboards.
    Rewriting the Compendium of Office Practices and Policies was the 
most ambitious of our projects. The Compendium is the comprehensive 
internal guidebook of registration and other practices relied upon by 
Office staff. It also serves as a recognized authority consulted by 
copyright owners, legal practitioners, and the courts. A team of 
experienced attorneys and registration experts engaged in the auditing, 
reconciling, and documenting of current registration practices. The 
team devoted special attention to relevant developments in the courts 
and new technologies for creating and distributing creative works. 
During this process, it has become clear that this revision was but the 
first step in developing a registration program for the twenty-first 
century.
    In addition to the above, we launched several new initiatives to 
enhance the knowledge and expertise of our staff. In 2013, I announced 
the Kaminstein scholar-in-residence program (which we implemented in 
2013 with Professor Robert Brauneis of George Washington University Law 
School, who joined the Office for a year). I also announced the Barbara 
Ringer honors fellowship program, through which the Office is able to 
offer some of the Nation's finest law school graduates a prestigious 2-
year clerkship at the Copyright Office (beginning fall, 2014). We also 
launched a major internal training program, the Copyright Academy, 
through which we educate staff at all levels in the basics of copyright 
law.
Law and Policy
    The Register of Copyrights is the principal advisor to Congress on 
issues of domestic and international copyright policy and, by statute, 
provides expert assistance to executive branch departments as well. The 
Copyright Office prepares major studies for Congress on highly complex 
issues, presides over administrative hearings and public roundtables, 
testifies before Congress and coordinates with intellectual property 
offices in the executive branch. The Office works closely with both 
copyright owners and users of copyrighted works to sustain an effective 
national copyright system that balances the interests of both sides 
with respect to issues ranging from enforcement to fair use.
    As noted above, the Congress is now involved in a particularly busy 
period of copyright review and possible copyright revision that is 
especially important and rather rare. This type of comprehensive review 
has not occurred for decades. The Register and the Copyright Office are 
playing a critical role in supporting the ongoing congressional effort, 
through expert analysis, reports, roundtables, meetings, and testimony. 
For example, in the past year, the Office:
  --Delivered a major report on the issue of copyright small claims. 
        The report proposed that Congress create a process whereby 
        parties can more efficiently pursue small copyright 
        infringement matters.
  --Completed a study concerning how a Federal resale royalty right for 
        visual artists would affect the creation, licensing, sale, 
        exhibition, dissemination, and preservation of works of visual 
        art.
  --Convened a major public inquiry and roundtables to review solutions 
        for orphan works and mass digitization of copyrighted works.
  --Commenced a comprehensive study on the music licensing marketplace, 
        one of the most complex and fragmented areas of copyright law.
    The Office also works with the Department of Justice on critical 
copyright cases, with the U.S. Trade Representative on negotiations 
around the world, and with the U.S. Patent and Trademark Office, State 
Department and Intellectual Property Enforcement Coordinator on a 
routine basis. These activities require significant expertise and 
commitment, and are a valuable service to the United States.
Administration of the Copyright Law
            Registration
    The special projects mentioned above were an important foundational 
step in assessing both technology issues and registration practices.
    Meanwhile, the Office has experienced an increase in the number of 
pending registration claims over the past 2 years. This growth is 
directly related to staff shortages and frustrations with the online 
systems. (The systems are largely reliable but are limited in design 
and functionality and by many accounts sluggish for staff and customers 
alike.) The Office is doing a remarkable job of processing claims under 
the circumstances.
            Recordation
    Recordation of copyright transfers and other transactions is an 
area of particular focus for the Office, as it provides an ongoing 
record of copyright ownership, licensing, and related data that can 
further commerce and research. But while most copyright registrations 
are now handled electronically, the Office had to forego improvements 
to the paper-based recordation function due to budgetary constraints. 
The process of transposing data from the printed documents into a basic 
electronic index is labor-intensive.
    The Office has an obligation to remake the recordation function in 
a manner that best serves the needs of the current marketplace. We have 
laid the groundwork for a reengineering effort. Through a series of 
public meetings held in late March, 2014, the Office has sought input 
from businesses, trade associations, and attorneys, as well as the 
general public, to better understand how to make the recordation system 
more accessible and efficient for users. The Office will continue to 
engage in these discussions throughout fiscal 2014 as it determines 
strategies to update the recordation system as soon as possible in a 
manner that befits the digital age.
            Statutory Licenses
    The Copyright Office administers certain statutory license 
provisions of the U.S. Copyright Act. These licenses cover activities 
including the making and distribution of phonorecords of musical works, 
the public performance of sound recordings by satellite radio and 
Internet services, secondary transmissions of radio and television 
programs by cable television systems, and secondary transmissions of 
network and non-network stations by satellite carriers.
    In fiscal 2013, the Office's Licensing Division collected nearly 
$316 million in royalty fees and distributed approximately $324 million 
in royalties to copyright owners, according to either voluntary 
agreements among claimants or as a result of determinations of the 
Copyright Royalty Board. The division also continued a multiyear 
business process reengineering program designed to decrease processing 
times for the examination of statements of account, implement online 
filing processes, and improve public access to Office records. The new 
processes will be implemented and refined throughout fiscal 2015, 2016 
and beyond.
            Administering Acquisitions for the Library of Congress
    The Copyright Office administers the so-called ``mandatory 
deposit'' provisions of the Copyright Act, which require publishers to 
deposit two copies of certain U.S.-published works with the Library of 
Congress (as conditioned in further detail by regulations). Like many 
parts of the Copyright Act, these provisions were enacted with analog 
works in mind and do not seamlessly translate to the digital 
environment. The Office must, therefore, find the resources to conduct 
the necessary legal analysis in this area and to consult the universe 
of stakeholders through appropriate public processes, including the 
copyright owners whose works may be at issue and the Library's 
collection and preservation experts. In fiscal 2013, as a result of its 
work in both registration and mandatory deposit, the Office transferred 
books and other deposits to the Library valued at approximately $29.4 
million, works that the Library might otherwise have had to purchase. 
The estimated value of transferred materials is considerably more than 
the amount the Office has received in recent years from appropriated 
dollars, making it a remarkable positive return for taxpayers.
Fees for Services
    On November 14, 2013, pursuant to 17 U.S.C. Sec. 708(b), the Office 
delivered to the Congress a schedule of proposed fee adjustments with 
respect to the registration of claims, recordation of documents, and 
other public services. This followed a 2-year public process that 
included stakeholder meetings and the solicitation of written comments. 
The statute requires that the Register establish fees that are ``fair 
and equitable and give due consideration to the objectives of the 
copyright system.'' In proposing the adjustments, the Office considered 
both cost recovery and the need to price services at a level that 
encourages participation in the registration and recordation processes. 
Thus, for what may be the first time in the Office's history we 
differentiated certain fees in the latest fee study, leaving fees flat 
for some individual authors while raising fees for publishers, 
producers, and those filing multiple claims or claims in multiple 
works. The Office will implement the new fees on May 1, 2014.
                         copyright office needs
    The Copyright Office sits at the center of a dynamic and 
commercially important legal system. Its work is critical to many, 
affecting not only the legal rights and economic interests of private 
actors but also the Congress, the courts, and the economy. Like the 
copyright law it administers, the Office is feeling the strain and 
demand of the world around it. It has both immediate and long-term 
needs, some simple upgrades and others that may require altogether new 
services and processes. Having completed a number of major public 
discussions and special projects, it is ready to commence strategic 
plans in a number of areas, including the recordation system, as 
resources become available. I look forward to these important 
challenges and systemic improvements.
                       fiscal 2015 budget request
    The request put forth by the Library of Congress for fiscal 2015 as 
regarding the Copyright Office is $53.068 million, offset by fee 
collections of $27.971 million and licensing royalty collections of 
$5.611 million (the latter of which are applied to the Office's 
Licensing Division and the Copyright Royalty Judges).
    The request is limited to inflationary increases to maintain 
existing spending levels and staff costs, as follows:
    (1) A 2.8 percent increase ($1.272 million) over fiscal 2014 for 
Copyright Basic to support mandatory pay-related and price level 
increases affecting administration of the Office's core business 
systems and public services;
    (2) A 2.6 percent increase ($131,000) over fiscal 2014 in 
offsetting collection authority for the Copyright Licensing Division to 
support mandatory pay-related and price level increases affecting the 
administration of the Office's licensing functions; and
    (3) A 2.7 percent increase ($41,000) over fiscal 2014 for Copyright 
Royalty Judges to support mandatory pay-related and price level 
increases.
    Thank you Madam Chairwoman. I appreciate your support of the U.S. 
Copyright Office and the copyright system that we administer for the 
Nation.

    Senator Shaheen. Thank you very much.
    Ambassador O'Keefe, I am going to ask you to go ahead and 
give your testimony, so we can do questions from both of you at 
once.
    Let me just point out that we have learned that there will 
be two votes at 4:30, so my hope is that we can wind up the 
hearing by 4:30, so we can all go vote.
    Ambassador O'Keefe.

                      OPEN WORLD LEADERSHIP CENTER

STATEMENT OF AMBASSADOR JOHN M. O'KEEFE, EXECUTIVE 
            DIRECTOR, OPEN WORLD LEADERSHIP CENTER
    Ambassador O'Keefe. Thank you, Madam Chairwoman, Ranking 
Member Hoeven, Senator Boozman. I want to especially mention 
your support, and members of the subcommittee and your staff, 
for meeting with the delegates who come here. It is a very 
powerful message for them.
    This May marks the 15th anniversary of the Open World 
Leadership Center, having brought over 20,000 delegates to the 
U.S. I am very honored to be here today with our founding 
chairman, Dr. Billington, who, along with Members of both 
chambers of Congress, had the brilliance and insight to inspire 
this program.
    This coming year represents the greatest challenge so far 
for the Open World program. In these trying times, it is 
important to continue to reach out to the rising generation of 
leaders in Russia, despite its invasion of Crimea, its 
leadership's aggressive stance toward its neighbors, and its 
anti-American propaganda.
    Russia's most productive people and its well-educated post-
Soviet youth understand that Russia has to diversify its 
economy beyond exporting hydrocarbons and minerals. We reach 
out to the rising generation to provide an antidote to what 
they are fed by today's leadership.
    These young people drink up what they see here: the ability 
to innovate, a chance to profit from one's own ideas, a 
transparent form of government, and a rule of law that protects 
individuals. They, not the current leadership, are the future 
of Russia, and we must not abandon them.
    In increasing measure, we also must support the rising 
generation in countries bordering the Russian Federation, 
particularly in areas where there are mixed ethnicities, like 
eastern Ukraine, Northwest Kazakhstan, and elsewhere.
    In February, our board of trustees, the majority of whom 
are Members of Congress, instructed us to bulk up our program 
in Ukraine and bolster our work in nearby countries in the 
Caucasus, Central Asia, the Balkans, Moldova, and Turkey. Our 
fall planning incorporates this directive.

                           PREPARED STATEMENT

    We seek an appropriation of $8 million. We need $10 million 
to sustain our program in fiscal year 2015, but we will find 
the additional funds, as we have in past years, through cost-
shares, gifts, and interagency transfers.
    That level, $8 million, will sustain one of the most cost-
effective, results driven, exchange programs extant.
    So I am happy to answer your questions and thank you for 
your time.
    [The statement follows:]
            Prepared Statement of Ambassador John M. O'Keefe
    Chairman Shaheen, Senator Hoeven, Members of the Subcommittee, 
thank you for the opportunity to present testimony on the Open World 
Leadership Center.
                                overview
    The Open World Leadership Center has focused on responding to the 
priorities of Congress since its inception in 1999. It does this by 
producing an exchange program that establishes lasting relationships 
between the emerging leaders of Open World countries while engaging 
Americans committed to sharing values and practices that lead to stable 
countries accountable to their citizens. In this capacity, Open World 
is assisting Congress in its oversight responsibilities and in inter-
parliamentary and legislative activities, while supporting 
international projects and partnerships of American citizens in all 50 
States.
    The Open World program was designed to bring emerging Federal and 
regional political leaders to the United States to meet their American 
counterparts and gain firsthand knowledge of how American civil society 
works. Program participants experience American political life and 
witness democracy in action, from debates in local city councils to the 
workings of the United States Congress. This hands-on and close up look 
at our processes--and the people who run them--has a unique impact on 
our delegates. The Open World experience provides the impetus for 
improvement; delegates return home and set to work creating change 
based on the models they have seen.
    Over the years, Open World's focus has expanded beyond the former 
Soviet states over the years. Today, Open World operates in 16 
countries and has brought over 20,000 rising leaders to engage with 
Congress, other governmental officials, and their American counterparts 
in professional exchanges in more than 2,100 American communities 
across the country.
    There has never been a more important time to forge connections 
with rising leaders across the Central Europe and Eurasia. Open World 
reaches out to the next generation of Russia's well-educated youth who 
eagerly take in what they see in the United States--the ability to 
innovate, a chance to profit from your own ideas, a transparent form of 
government, and a rule of law that protects individuals. They are the 
future of Russia and we have an incalculable opportunity to introduce 
them to the everyday practices of good governance and the rule of law. 
In equal measure, we must support the rising generation of leaders in 
countries bordering the Russian Federation, particularly areas where 
there are mixed ethnicities, like eastern Ukraine, Georgia, northwest 
Kazakhstan and elsewhere.
    As significant changes occur in the region, Open World stands 
poised to increase our presence in Ukraine in response to Congressional 
priorities. We are closely coordinating plans for Ukrainian programming 
with key State Department officials, including Ambassador Pyatt and his 
team at the Embassy to determine how best to help the fledgling 
government in this critical time. Ambassador Pyatt recently noted, ``As 
I travel around Ukraine, I frequently meet Open World Alumni and have 
been impressed by the breadth of the program and its ability to build 
relationships with young professionals at the local level. . . . [M]any 
Open World alumni have been excellent partners to the Embassy in terms 
of implementing civic-minded initiatives in their communities.''
                           open world program
    The Open World Leadership Center is an asset for Congress, directly 
connecting Members to rising leaders in an evolving region and to the 
American constituents who host these delegates. Open World's extensive 
leadership networks abroad and hosting network in the United States is 
a resource for Members of Congress seeking new partnerships with young 
political, civic and community leaders from here and abroad. An 
investment in Open World is an investment in America's future security.
               open world enables emerging young leaders
    Open World is designed to enable emerging young leaders to:
  --engage with government, business, volunteer, and community leaders 
        carrying out their daily responsibilities;
  --experience how the separation of powers, checks and balances, 
        freedom of the press, and other key elements of America's 
        democratic system make the Government more accountable and 
        transparent;
  --develop an understanding of the American market-based economy;
  --learn how American citizens organize and take initiative to address 
        social and civic needs;
  --participate in American family and community activities; and
  --establish lasting professional and personal ties with their 
        American hosts and counterparts.
    Because Open World provides such high-caliber programs, 
participants return home with a tangible appreciation of America's 
democracy and market economy. The impact of the 10-day program with 
home stays in the United States, a keystone of the Open World model, is 
multiplied by continued post-visit communication between participants 
and their American hosts, their fellow Open World alumni, and alumni of 
other United States Government-sponsored exchange programs. Open World 
has also frequently facilitated communication between Open World alumni 
and visiting officials wishing to have an unfiltered dialogue of 
current issues.
                       open world strategic goals
    Open World sets strategic goals that reflect the interests of 
Congress and their constituents, and meets these goals.
  --Reaching a New Generation of Leaders.--Open World selects the most 
        promising of the next generation of rising leaders in our 
        participating countries. After their time in the United States, 
        these young leaders maintain contact with each other and their 
        American counterparts through social media groups set up by 
        Open World. Building on the success of the exchanges, Open 
        World assembled an American advisory committee consisting of 
        young professionals with extensive experience in Open World 
        countries to consult on program agendas, alumni engagement, and 
        administer post-program surveys.
  --``30 Under 30''.--In 2012 Open World set a goal of having 30 
        percent of its delegates be aged 30 or younger: In 2013, 35 
        percent of delegates were 30 or younger at the time of their 
        program. These young professionals studied themes as: 
        innovation in higher education, non-governmental organization 
        (NGO) development, journalism, social entrepreneurship, and 
        information technology. In November 2013 for example, Open 
        World partner, the Center for Safe Energy (CSE), hosted a 
        delegation of young Russian social entrepreneurs in Silicon 
        Valley. In coordination with Open World's Young Professional 
        Advisory Committee, CSE created a program designed to maximize 
        benefits for both the Russian visitors and their American 
        counterparts. Outcomes from this unique program include several 
        projects delegates have planned as a result of their trip: a 
        free legal clinic in Moscow based on a visit to Berkeley's Boat 
        Law School, and future academic exchanges with San Francisco's 
        Peer Health Exchange for training teachers to instruct and 
        provide guidance about pressing social issues.
  open world exchange programs for leaders in countries new for open 
                                 world
    Open World responds to Congressional interests and Member requests 
to begin exchange programs for leaders in countries new for Open World:
  --Mongolia.--At the request of Co-chairs for the House Mongolia 
        Caucus in 2013, three Mongolian judicial delegations arrived to 
        observe American court systems, and learned about systems, such 
        as probation, that do not exist in Mongolia. Following an 
        exchange, one delegate joined a working group to establish 
        procedures for a new trial system in Mongolia, noting that the 
        information gleaned from his visit to Los Angeles will be 
        invaluable to that work. Other delegates from rural areas of 
        the country made plans to implement both mediation and 
        probation systems in their home courts.
  --Kosovo.--The Board approved a request from the Co-Chairs of the 
        House Albanian Issues Caucus to initiate Open World hosting for 
        Kosovo National Assembly Members and staff as part of an effort 
        to promote integration with the European Union and NATO. 
        Earlier this year, Chairman Eliot Engel met with one of the 
        first delegations from Kosovo, which was hosted by Mercy 
        College in Dobbs Ferry, New York. As a result of the trip, 
        faculty and administrators from the Mercy Community will visit 
        Kosovo later this year to develop a partnership, including a 
        student exchange program, with a university in Pristina.
  open world links members of congress to rising eurasian leaders and 
                          their american hosts
    In 2013, there were 190 meetings between Members of Congress or 
their staff and Open World delegations. Over 70 percent of 2013 Open 
World delegations took part in such meetings, many of which were 
arranged and attended by our active constituent hosts.
    Recently, Senator Boozman met with a delegation of youth 
legislators from Russia. Before the Senator arrived, the delegates were 
impressed even with their ability to access the Senate office buildings 
and to speak with senior aides to the Senator. That the Senator would 
sit down to speak with them at length about accountable governance and 
the importance of personal relationships in grassroots democracy 
profoundly impacted the delegates.
    Since its inception, Open World has supported hundreds of 
partnerships and long-term projects between constituents and Open World 
delegates and was instrumental in the establishment of several others. 
Over 90 communities in the United States have developed or furthered 
partnerships and joint activities with regions/communities in Open 
World countries, including some 20 court-to-court partnerships. Local 
chapters of Rotary International, Friendship Force, U.S.-Ukraine 
Foundation and other Open World grantees have partnerships in several 
Open World countries. In 2013, Open World hosted delegations linked to 
39 partnerships with American organizations, for example:
  --U.S. District Judge Richard Bennett led efforts to reinvigorate the 
        sister-city relationship between Baltimore and the port city of 
        Odessa, Ukraine. In April 2013, a delegation of judges, law 
        professors and a judicial clerk formed the third specialized 
        rule of law delegation from Ukraine to have programming in 
        Baltimore and the greater area in order to foster the growing 
        ties between these sister cities. According to the program 
        facilitator, the program changed the perception of the words 
        freedom and democracy for the delegation. The delegates 
        indicated that ``you can feel freedom even in the air'' in 
        Maryland. This program followed the visit of a high-level 
        judicial delegation to Odessa of Open World hosts from Maryland 
        that occurred in 2012. Open World has long been instrumental in 
        supporting the sister city partnership between Kharkiv, Ukraine 
        and Cincinnati, Ohio. In 2013, five mayors from the Kharkiv 
        region of Ukraine paid their own way to Cincinnati with an Open 
        World alumnus in order to build on the partnership. One of the 
        visiting mayors credits his visit to the United Way office, 
        Wyoming High School, and the Drop Inn Center in Cincinnati with 
        inspiring him to get students involved in volunteer work for 
        the homeless in Kharkiv.
  --A long dormant Cleveland-Volgograd (Russia) partnership was 
        reinvigorated by Open World in 2012. Since then delegations of 
        legislators, doctors, women leaders, and judges have visited 
        the Cleveland area.
  --Open World's first Kosovo delegation supported a newly formed Iowa-
        Kosovo sister state relationship, which in turn arose from a 
        National Guard partnership with Kosovo. An Open World 
        delegation studying economic development went to Des Moines in 
        January 2014, and delegates were interested in the community 
        college model for providing additional training to high school 
        graduates.
  --The Greater Portland-Russian Sister City Project (The Archangel 
        Committee) of Portland, Maine celebrated their 25th anniversary 
        in 2013. Ambassador O'Keefe attended the anniversary event 
        which included the vice-mayor of Archangelsk and the Governor 
        of Maine, among others. Over the years, the Archangel Committee 
        has hosted 17 Open World delegations, and was one of our very 
        first grantees. Their warm, professional hospitality and 
        excellent professional programming have resulted in long-term 
        friendships and professional ties with the people and 
        government administration of Arkhangelsk.
  --While many partnerships are institutional, some are personal. One 
        local host, a small business development expert from the 
        University of Wisconsin, has been hosting Kazakh delegates for 
        the past 5 years and has developed collaborative partnerships 
        with several of the delegates he has met. He has travelled to 
        Kazakhstan several times, most recently last month, to continue 
        previous work (with a delegate from 2010) on the development of 
        Rural Business Centers, to network with past Wisconsin Open 
        World alumni and to continue to build collaborative 
        opportunities for future projects and efforts.
open world alumni return home and initiate projects that contribute to 
               democratization efforts in their countries
    Most importantly, Open World Alumni return home and initiate 
projects that contribute to democratization efforts in their countries:
  --At the request of the U.S. Embassy in Kyiv, Open World in September 
        2011 hosted Ukrainian parliamentarian Olesia Orobets, the 
        forward-looking chair of an education subcommittee. During her 
        visit, Deputy Orobets had a peer-to-peer conversation with 
        Congressional Ukrainian Caucus Co-chair Representative Marcy 
        Kaptur of Ohio about economic development, current affairs, and 
        representative government. A meeting with Lawrence R. 
        Silverman, special advisor to the Vice President for Europe and 
        Eurasia, and National Security Council and State Department 
        staff focused on Deputy Orobets's efforts to make the Ukrainian 
        Government more accountable to its citizens. As a pioneer in 
        using social media to communicate with the Ukrainian 
        electorate, the visiting deputy also benefited from meeting 
        with technology expert and State Department senior advisor Alec 
        Ross. Open World continues to assist Deputy Orobets in her 
        efforts to improve standardized testing and transparency in the 
        higher-education admissions process; recently, for example, 
        Open World arranged for her to meet with Georgian Open World 
        alumni working to improve transparency in education.
          Currently, Deputy Orobets is a prominent candidate in the 
        election for Mayor of Kyiv, and is at the forefront of the 
        democratic movement in Ukraine. Her popularity stems, in part, 
        from the significant role she played in publicizing the plight 
        of Ukrainians on the Maidan, and her passionate support of 
        democracy in Ukraine. She was a constant presence on the 
        Maidan, using social media to inform the world of the events.
  --A Georgian delegate who travelled to St. Paul, Minnesota to study 
        accountable governance at the local level returned home to 
        establish an independent online newspaper.
  --The vice-speaker of the Moldovan Parliament travelled to Raleigh, 
        North Carolina in 2012 as part of the North Carolina-Moldova 
        Sister State partnership. The delegate returned home and 
        launched the Political School for Women Project, which trains 
        women and encourages them to get actively involved in politics 
        and public life. The delegate reported that ``As part of the 
        Open World visit in the U.S., I was impressed by the efficient 
        communication within public institutions, and upon my return to 
        Moldova I started replicating the American model in my daily 
        activity as an MP. The Political School for Women Project is a 
        good example in this regard. I wanted Moldovan women to learn 
        how to communicate efficiently within our network, how to 
        engage in and conduct civilized, efficient debates, how to be 
        tolerant, respectful and promote the values of a mature 
        democracy. I am encouraging young politicians to participate in 
        Open World and bring positive change to Moldova.''
    We pride ourselves on choosing the highest quality delegates--true 
rising leaders--which we can track when delegates report back on their 
promotions. Two Georgian delegates travelled to Maryville, Tennessee in 
2009 in their capacities as directors at different policy and 
management consulting firms. They are now the Deputy Minister of 
Finance and the Deputy Minister of Defense.
                       plans for 2014 and beyond
    The Open World Leadership Center is a small, flexible, and 
efficient agency. As such, we are able to quickly respond to changing 
geo-political climates to maximize efforts to aid Congress in its 
oversight responsibilities. We currently have plans to increase 
delegations from Ukraine; our Ukrainian partners have highlighted an 
immediate need for groups to study Post Traumatic Stress Disorder 
(PTSD), traumatic injury, and emergency response as a result of the 
recent events in Kyiv and elsewhere in Ukraine. We also plan to bring 
groups with more long range objectives: business leaders from regions 
facing the challenge of the loss of markets in Russia; judges and court 
administrators (as reforms begin in that troubled arena); regional 
legislators and mayors.
    For 2015, Open World will continue the initiatives described above, 
both in terms of responsiveness to Congressional requests and in 
focusing on the younger generation of leaders in Open World countries. 
We will strive to find partnerships and other cost-sharing arrangements 
to maximize our effectiveness.
                      a model of budget efficiency
    Open World offers Congress an extraordinary ``bang for the buck,'' 
serving as a model of efficiency, cost-effectiveness and value. Open 
World boasts an overhead rate of just 7 percent with 93 percent of our 
annual expenditures going directly to program costs. Open World 
investigates and pursues every opportunity for savings and diligently 
manages its fiscal operations with a goal of reducing costs without 
compromising program quality.
    Open World employs best practices to develop the most cost-
efficient and effective means to accomplish our mission. Early on Open 
World established internal controls to ensure program quality, 
including pre- and post-program report follow-up, weekly 
teleconferencing with our logistical contractor, and regular contact 
with grantees and local hosts. Open World uses a zero-based budget 
approach to every contract, every grant budget, as well as our annual 
operating budget. Open World actively seeks cost-sharing partnerships 
with other government initiatives whose missions complement ours. The 
U.S. Agency for International Development, the Department of Energy, 
the National Endowment for the Arts, and the embassies in Armenia, 
Turkmenistan, Ukraine, and Uzbekistan have all joined with the Open 
World Leadership Center in directly funding a number of delegations.
    Funding at the requested level of $8 million will enable Open World 
to fully respond to Congressional interests in the region and beyond 
while continuing our proven mission of hosting young political and 
civic leaders who return home to launch projects and programs in 
cooperation with their American counterparts and hosts. The Board of 
Trustees believes that maintaining a robust grassroots-based Open World 
presence in the region is necessary and important for future U.S. 
relations in these politically significant countries.

                    WEB ACCESS TO LIBRARY MATERIALS

    Senator Shaheen. Thank you very much for your testimony.
    I am going to begin, Dr. Billington, with you, if I can. 
One of the things I know the Library of Congress has worked 
very hard on is to develop a Web strategy to allow online 
access to increasing amounts of the Library's collections. I 
know I hear from people in New Hampshire frequently about how 
much they appreciate being able to access the Library of 
Congress materials online.
    Please give us an update on your Web strategy, talk a 
little bit about what has been accomplished, and what you hope 
to do in 2015 with the dollars that you are requesting to 
support the Web strategy in the coming year.
    Dr. Billington. Thank you, Madam Chair.
    First of all, with Congress.gov, we are taking the existing 
LIS and THOMAS systems and moving them to a single platform. So 
Congress.gov, that is the service to you, is now in beta 
version. We have had six releases of the system.
    And even though it is still in beta form, more people are 
now using Congress.gov than THOMAS, our previous system. We are 
adding content regularly, improving search performance and 
visual design. And in 2014 and 2015, we will complete the 
transition of content from the existing systems to 
Congress.gov.
    Meanwhile, we are enhancing our advanced search 
capabilities for those users in the Congress and in the 
Library. We will remove the beta label and retire the old 
systems in this timeframe.
    Now for the national Library content, we have 45.2 million 
files, digital files online. This is an enormous educational 
and inspirational asset for America. We are not replacing but 
transforming the existing site section by section, in order to 
have advanced searching, consistent design, and common tools 
across the site.
    To date, we have added detailed data to millions of new 
collection items to support advanced search. We established 
common viewing tools for users of film. And we now have a 
common navigation bar for the site as a whole.
    In the future, we will continue to transition content to 
the upgraded design templates that we have established, and to 
make improvements for mobile users, which is, of course, a very 
important thing.

                         SERVICES FOR TEACHERS

    We will upgrade material for teachers, including 
introducing tablet-based versions of primary source sets, which 
is basically what we have produced, that tailor the Library's 
historical content to the classroom.
    Last year, I might add, more than 2,000 teachers 
participated in institutes, workshops, seminars, conferences, 
and webinars in 88 percent of congressional districts 
throughout the country.
    Our Library-wide team is making good progress, we think. 
And it is, I would stress, a free service to the most important 
people in our entire educational system; that is, whoever 
teaches and whoever learns. And this Library is now fully 
dedicated to lifetime learning, beginning with the three new 
projects on overcoming illiteracy here and abroad that we just 
established this past year, continuing through the quite 
significant impact we are having already on K-12 education.
    As far as the futures program is concerned, we have had 72 
staff members below the executive level conducting the 
exploratory part of the futures program. We are now forming the 
program itself. We have three committees ascended from those 
eight teams that worked on the preparation of this, and will 
eventually come back to the executive committee and then on to 
the Congress.
    They have three tasks. These are the big Library-wide 
tasks: to mediate knowledge to translate and interpret our 
collection and content for the Congress and the American 
people; to ensure a coherent digital strategy, about which I 
just talked; and to develop fresh collaborations with outside 
organizations to further multiply the impact of what we already 
have online.
    So basically, we are seeking to find new synergies, 
economies, and expert skills for the workforce of the 21st 
century, both digital and analog, in order to develop and 
streamline the Library's already extensive services, both 
onsite in our three buildings and online everywhere.
    Senator Shaheen. Thank you.
    Senator Hoeven.

               MASS DEACIDIFICATION AND OFF-SITE STORAGE

    Senator Hoeven. Dr. Billington, how is the original 30-year 
plan for the mass deacidification of the books changed over the 
past decade, as technologies have changed? Is it still a quick 
path to preserving books initially included in the 30-year 
estimate that you gave us?
    Dr. Billington. Well, the technology of doing this is 
working pretty much as expected. Both the environmental control 
technology and the retrieval systems are working very well for 
the preservation storage modules that have been touched on in 
the Architect of the Capitol's remarks.
    We still need eight additional storage modules for this. We 
are grateful for the support of module five. The program is 
considerably behind its original schedule. We have material 
ready for two more modules, and there will still be six 
remaining. So that part of it is in process, thanks very much 
to your support of it last year.
    We deacidify both books and sheets, the latter mainly 
manuscripts. We want to decrease the number of volumes we are 
treating.
    In the original plan, the 30-year program established 14 
years ago, the target was to treat 250,000 volumes per year. It 
was based on the assumption that the Library would receive 
100,000 new acidic volumes per year, each requiring treatment.
    We are now receiving about 25,000 acidic volumes per year. 
This lowers the target rate considerably. We also surveyed the 
remaining volumes to be treated. We have essentially picked all 
the low-hanging fruit, to put it rather crudely and simply. And 
so the remaining volumes are going to be more time-consuming to 
retrieve for treatment, and, essentially, more expensive. They 
are also more widely dispersed, so with our crowded stacks, it 
takes longer to retrieve them and process them successfully.
    We are figuring on treating about 100,000 volumes per year, 
and expect that the unit cost will increase a bit as the 
retrieval, which is done by the company that does the treatment 
and is doing it very well, takes more time. We will need to 
lower our mass deacidification costs, which are now taking up 
55 percent of our nonpay over-all in the preservation budget, 
which is too much, and is impacting our other preservation 
efforts.

                     BALANCING PRESERVATION OPTIONS

    Remember, we have not only the world's largest supply of 
printed materials, but immense manuscripts, immense numbers of 
manuscripts, photographs, all kinds of other things that 
require this, too.
    So we have to have a balance in our program. We have two 
option years remaining on the current contract, and we need to 
have realistic discussions with the company doing this work--
they are doing it well--so that we can meet all of the 
Library's needs in a cost-effective way.
    There are other preservation methods, I might just mention. 
There is cold storage, digitizing books that are already 
embrittled, microfilming, rehousing, and binding. Currently we 
are doing 18 percent less binding than we were able to do last 
year. This is typical of the kind of cuts that reduced staffing 
is requiring.
    We want a balanced program that addresses all requirements. 
It is very important. The thing that is least appreciated, I 
think, about what the Nation's Library does is preservation. In 
terms of acquisition, we still acquired nearly 3 million analog 
books. We house 6.5 PB of digital information produced by 
others. It is an incredible amount, in addition to the enormous 
outreach that I already mentioned.
    And, fortunately, we have an extraordinarily dedicated, 
hardworking, and multitalented staff, which is a national 
treasure. And we have to keep giving them all we can because 
they are giving a great deal for the Congress and for our 
country.
    Senator Hoeven. So at this point, you do intend to 
deacidify the books and manuscripts, but you intend to combine 
that with use of technology and some of the digital imagery? Is 
that what you are saying?
    Dr. Billington. Yes. There are a variety of preservation 
techniques, in addition to deacidification.
    So the original expectation when there were many more high-
acid books being produced was to do about 250,000 a year. We 
now are planning on doing about 100,000 a year, and resorting 
to other techniques, which we have to some extent been using 
anyhow.
    The storage modules, for instance, at Fort Meade have cold 
storage, which is an excellent preservation medium. Digital 
reformatting offers other opportunities. So it is a diversified 
overall program.
    We have the world's greatest audiovisual preservation 
center in Culpeper, Virginia, which the Congress supported with 
funding and staffing, but much of the facility was donated, one 
of the biggest donations ever made, by the Packard Humanities 
Institute. That is a whole other aspect of our very perishable 
audiovisual heritage that the Library is addressing.

                hardcopy versus electronic acquisitions

    Senator Hoeven. How are you determining when to acquire a 
book and when to acquire a book electronically?
    Dr. Billington. I am sorry?
    Senator Hoeven. How are you determining when to acquire a 
physical book and when to acquire it electronically?
    Dr. Billington. Well, increasingly, we acquire books now in 
digital form, as well as in hard copy. We acquire books in 
three ways really, by purchase, by exchange, and above all by 
copyright deposit, which is increasingly coming in digital 
form.
    But the basic principle is to get the best copy you 
possibly can, and the most permanent one. And, of course, 
digitized materials are not permanent either. So when we 
digitize something, for instance, from our collection for broad 
dissemination, we do not destroy the analog copy, because 
chances are it will last longer than the zeros and ones all 
over the magnetic paper or whatever the ultimate repository is 
out of which digital material is made.
    So it is a complex problem, but we are trying to save the 
best copies for as long as we can.
    Senator Hoeven. Thank you.
    Senator Shaheen. Senator Boozman.

                        VETERANS HISTORY PROJECT

    Senator Boozman. Thank you.
    And again, thank both of you for being here and for your 
hard work. We really do appreciate it.
    With votes coming up, Dr. Billington, I really just have 
one question that I would like for you to comment about, maybe 
two. But here's the first one.
    Tell me about the Veterans History Project. That is 
something that I have a real interest in. I think you are 
asking for $2.04 million.
    Can you tell us a little bit about the history of the 
Veterans History Project and what you have been able to 
accomplish? And also, what would you like to accomplish in the 
future?
    Dr. Billington. The Veterans History Project was a 
unanimous mandate from both Houses of Congress to produce some 
kind of record of every veteran who fought in an American war 
from World War I right up to the present conflicts in 
Afghanistan and Iraq.
    We are approaching 100,000 interview records, which makes 
it the largest oral history project in the history of the 
United States. And it is very powerful testimony.
    We also collect all kinds of other items such as letters, 
correspondence, diaries, various artifacts and records of 
veterans.
    It started before I became a government servant. I don't 
think the history of wars will ever be the same. Our collection 
represents people of all ranks, a variety of experiences, 
during America's various conflicts. We got records of the last 
of the surviving World War I veterans, and we are now working 
our way up into Korea, Vietnam, and more recent conflicts.
    We have an excellent supervisory committee. We have a very 
dedicated staff under the gentleman who was very much involved 
in the World War II Memorial.
    We collect all kinds of materials and we have a very rich 
bibliographic and reference service to other veterans' 
collections that exist around the country.
    I think it is a marvelous initiative that the Congress 
took. We don't have a great deal of funding for this, so we are 
relying on volunteers including schoolchildren. This is an 
amazing experience when children are involved, because a lot of 
veterans don't like to talk about their experience, but somehow 
they will with young people.
    So many schools, and I urge you to learn more about this 
and we can help you do that, set up a program, or advise 
schools of the possibility of this. Because aging veterans, 
particularly, may not want to talk to their family. They may 
want to leave these memories behind. But when some kid in the 
neighborhood or a young grandchild of your uncle or your 
neighbor, a young person comes, they are likely to open up.
    And it is a beautiful thing, if I may say so, because it is 
good for the veteran to have someone who wants to hear about 
his sacrifice. And it is very good for young people to discover 
the sacrifices that their parents or grandparents, those 
generations, have made for them to continue to enjoy the 
freedoms and opportunities that the country provides, that 
these people have gone out to defend in time of need.
    It is something we would like more funding for, but it has 
survived and it thrives on volunteer participation. We would be 
delighted to help you or any of your colleagues with materials 
on this program.
    It is a very simple process. It is not complicated. Kids 
can do it just as much as grown-ups. And we all benefit, and 
future generations will as well.
    And I will say that in the writing of history, we encounter 
all kinds of funny things, too. I won't regale you with 
stories. But there is much tragedy and suffering, but there is 
much sacrifice and heroism often told with humor, and it is a 
great, great story of our people.
    Senator Boozman. No, that is great. And hopefully, I will 
get to come over and you can show and share some more of those 
stories.
    Dr. Billington. We would be grateful.
    Senator Boozman. I think it is a great project. Like you, I 
think it really has changed our ability to record some of these 
events. It is so great that we are doing this in first person 
accounts.
    You mentioned the children. We have had the same experience 
with medal presentations when the families are there, and 
again, grandkids, for the first time understanding exactly what 
went on and the sacrifice and the service, and how those 
individuals will open up at that point.
    Dr. Billington. Well, it was a great congressional 
initiative. I really have to congratulate all of you for having 
made this a mandate.
    Senator Boozman. We appreciate that. We don't get 
congratulated very much for some of the programs.
    But again, thank you, Madam Chair.
    And we do appreciate both of you for your hard work.

                             DONATED BOOKS

    Senator Shaheen. Thank you, Senator Boozman.
    Dr. Billington, I understand that the Library receives 
large numbers of donated books each year. Can you tell us what 
happens to those donated books? How many do we receive, and 
what do we do? Does the Library keep them all? What happens to 
the leftover?
    Dr. Billington. Well, we don't really have a formal book 
donation program at the Library. That is not the common way we 
get them.
    As I mentioned, I think, before, they come through either 
deposit--copyright deposit, that is to say--exchange with other 
institutions, or purchase. Surplus books that the Library does 
not select for its collections are often used for exchange in 
order to obtain books, for instance, from foreign countries.
    Our collections involve 470 languages throughout history. 
It is the only place that really collects basically in all 
languages, current languages, in which serious information and 
knowledge is published.
    But any surpluses that we accumulate are made available. We 
do have a surplus book program, and the collection items are 
made available either for exchange with foreign countries or 
for book programs in Members' constituent libraries, 
particularly prisons and various kinds of reservations or 
flood-damaged places.
    We don't sell them. They are distributed internally to 
other libraries and constituents that have needs.
    Senator Shaheen. And how can one request being able to 
receive some of those surplus books?
    Dr. Billington. I think someone from your staff can come 
and visit. There is a place we have them in the Madison 
building.
    Incidentally, the Madison building is the Nation's official 
memorial to the principal author of our Constitution. That is 
not very often realized. Of course, it is not as beautiful as 
the Jefferson building, where we are grateful to be 
beneficiaries of the underground passageway from the Capitol 
Visitors Center to our public spaces. The beautiful Jefferson 
building now receives 1.6 million visits a year, quite apart 
from the people who come to actually use the 21 reading rooms 
that the Library has and the other programs, the concerts and 
other events, that we have.
    Anyhow, I am wondering from your subject a little bit here.

                        COST-SHARING INITIATIVES

    Senator Shaheen. So, Ambassador O'Keefe, I have my final 
questions for you. As you are aware, in the last couple years, 
the subcommittee has encouraged Open World to focus more on 
cost-sharing initiatives to do fundraising and develop new 
sources of revenue.
    Could your please give us an update on those efforts? And 
also, in the last budget, there was some hope on the part of 
the subcommittee that those outside fundraising efforts would 
replace the dollars that had been provided through the 
subcommittee, and yet your request has come in with $2 million 
above what was requested or what was provided in the last 
budget.
    Can you talk about why the additional funding is being 
requested, and then also about the efforts to reduce the costs 
per participant in the program?
    Ambassador O'Keefe. Yes, Madam Chairwoman.
    Regarding your last point, we have reduced the unit cost 
per person last fiscal year as well, and probably this fiscal 
year as well, depending on what happens over the next several 
months.
    So we continue a downward trend on reducing costs, year 
after year. So, let's say, from 4 years ago, we are down about 
18 percent to 20 percent.
    In terms of finding other sources of income, we have made a 
strong effort toward additional cost shares, and also 
interagency transfers. Those two elements for this year will 
help cover our full budget of $9.8 million. So $3.8 million 
will come from those sources, mostly interagency transfers and 
$6 million from appropriated funds.
    In terms of the gifts and fundraising, our staff is quite 
small. It fits into an elevator. We really don't have the 
funding for a professional full-time development person. So in 
a sense, we are working with the tools and the people we have. 
Obviously, I work on this.
    We generally get somewhere between $200,000 and $500,000 a 
year in gifts. We are limited somewhat, because many 
foundations require that an organization, many of them, have 
501(c)(3) status, which we are not and cannot be.
    But I think the really fundamental question, or the 
fundamental issue, is that Open World Leadership Center is in 
the legislative branch, and we are the tool of Congress. We 
respond to requests, both from Members and also from your 
constituents.
    And so I do believe that funding for Open World should be 
primarily from this appropriation, and that it really makes us 
not beholden to somebody else's board, not beholden to someone 
who provides some funds with strictures and directives, but 
gives us the ability to do the tasks Congress sets for us.
    And what do we have? We have an appropriation of $6 
million. And out of the total we are using, we are more than 50 
percent above what you are giving us. So that is not a bad 
ratio, I don't think, Madam Chairwoman.
    Senator Shaheen. I am not quite clear on the math. So, you 
said with what we are giving the Open World, that you are able 
to almost double that amount?
    Ambassador O'Keefe. This year we were, or we hope we will. 
We have an interagency transfer from the State Department of $3 
million, which has boosted us up quite a bit, and so that was 
partly in response to issues regarding Russia and the removal 
of AID and other things.
    For this coming year, the reason why we asked for $8 
million, even though we need $10 million, is that this was a 
one-time only transfer from the Department of State. We will 
still get more cost share, and we will get interagency 
transfers.
    But I think the point I was hoping to make is that we 
really are part of the legislative branch. We are an agency 
that supports the Congress. And as such, we can do fundraising, 
but there is a limit, both in terms of how much we can get, but 
I think also how much would tip the balance to let's say less 
ability to respond to our primary needs and more of responding 
to those who are providing the funds.
    Senator Shaheen. Thank you.
    Senator Hoeven.

                  FULL-TIME EQUIVALENTS AT THE LIBRARY

    Senator Hoeven. Dr. Billington, how many full-time 
equivalents do you have now? And what is your hiring goal for 
this year, for fiscal year 2014? And will you reach it? And if 
you don't, how are you going to use the dollars?
    Dr. Billington. This is FTEs? Is this the question?
    Senator Hoeven. Yes. So how many FTEs do you have right 
now? What is your goal for the year? And if you don't hit the 
goal, how do you use the money?
    Dr. Billington. Our target FTE with the funding we received 
in fiscal 2014 is 3,273. By the end of fiscal 2014, we will 
have hired all the staff necessary to achieve that target.
    Senator Hoeven. So you will hit your goal of 3,273? You 
will hit that number?
    Dr. Billington. We will have hired all of the staff that 
will achieve that target number, yes, sir, by the end of this 
fiscal year.

                         RUSSIAN PARTICIPATION

    Senator Hoeven. Ambassador, a couple questions for you.
    I will start with how does what is going on in Russia, 
Putin's actions into Ukraine, and our relationship with the 
Putin government, how is that affecting your program?
    Ambassador O'Keefe. Senator, I have been in discussions 
with individuals at the State Department and the European 
Bureau. I also talked to the Embassy in Moscow today. I have 
been in contact with Ambassador Pyatt in Ukraine.
    At the moment, we are continuing to bring the same number 
of delegates. We will be shifting away in future delegations 
from Russian government officials.
    The Embassy mentioned to me today, and the leadership over 
at the State Department, again, that Open World is one of the 
few tools remaining to keep the message of the U.S. in the 
forefront of this rising generation.
    In other words, what is happening in Russia is that 
President Putin has taken control of pretty much all the TV 
stations. The one remaining Internet TV is now under his 
control. They are blocking Web sites. They are trying to 
control information.
    But what we do have, through this exchange program, are 
individuals who can come here and see for themselves. When they 
go back, they have a wide range of contacts. So we get a real 
multiplier effect.
    The other element that allows us to function is we have a 
huge network throughout Russia in all the regions. And they are 
part of our nominating process. So we can, again, find those 
who are moving up in leadership positions or showing promise in 
other areas.
    And you know, frankly, we don't care what their ideology is 
or what their political viewpoints are. The point is we bring 
them here, in a sense, without an agenda. They stay with 
American families.
    And when they go back, they go back changed. Now they may 
still have certain views, but they understand that America is 
much different than their stereotypes.
    Senator Hoeven. Are you going to have to make changes to 
your program based on what is going on?
    Ambassador O'Keefe. We are reducing numbers in Russia, 
increasing them in Ukraine. That will be our plan for the 
autumn.
    The other thing that we were doing was bringing legislators 
from Russian regions, and we won't be doing that in the future, 
because, again, the policy will be geared toward reaching other 
sectors of Russian society.
    Senator Hoeven. How do you measure results?
    Ambassador O'Keefe. We do this in a number of ways. First 
of all, what we look for is if the individuals who participated 
in the program go back and undertake various changes to either 
their workplace or within their communities.
    The second thing we look for, because, again, what we are 
trying to project is a positive image of the U.S., and so we 
look to see publications that people do when they return.
    The third point is that because we are looking for emerging 
leaders, we track delegate and alumni progress in terms of 
moving up into higher positions.
    And then fourth, we look to see any other activities they 
might undertake that would, let's say, enhance accountability 
and governance or enhance the market economy in their 
countries.

                  FUNDING FROM THE DEPARTMENT OF STATE

    Senator Hoeven. Why has State agreed to give you the 
funding?
    Ambassador O'Keefe. Why did the State Department give us 
the funding? I will quote from the Ambassador in Russia who 
just left, and what he said is, ``As I travel through the 
regions of Russia, I find that in every community I visit, the 
Open World alumni are the most enthusiastic, the most engaged, 
and the most committed to working with the United States.''
    And I get the same comments from other ambassadors in our 
other countries, that the program is very effective in changing 
the atmosphere and willingness to work with us.
    And this is not at the foreign ministry level. These are 
people in communities. As Dr. Billington directed me when I 
first came to the Open World Leadership Center, he said, I want 
it from the periphery in, from the bottom up.
    Senator Hoeven. Is there a chance we could get it set up 
with State as a matching program, so, for example, we put an X 
amount and they match it?
    Ambassador O'Keefe. That would be an excellent idea. We 
have explored the concept with Foreign Operations. But I think 
within the full committee, if there is obviously a thought 
about this, it would be a perfect solution.
    Senator Hoeven. Would you be willing to inquire as to that 
dialogue and then maybe we can have it with them? And you could 
inform us as to how you feel it might be most productive to do 
that, if the chairwoman would be willing to maybe engage in it 
as well?
    Ambassador O'Keefe. Yes, sir. I would be happy to do that.
    Senator Hoeven. Thank you.

      DIFFERENCE BETWEEN STATE DEPARTMENT AND OPEN WORLD PROGRAMS

    Senator Shaheen. Maybe I can ask, though, if you can 
distinguish how what Open World does compares to some of the 
programs that State operates. What distinguishes Open World, as 
you see it, from some of the programs that State operates with 
respect to visiting dignitaries to the United States?
    Ambassador O'Keefe. Yes, ma'am. I think there are two 
things that are really different. The first thing is because we 
are in the legislative branch, over 85 percent of our delegates 
meet with either Members of Congress or their staff. So when 
they come here, they get to see what legislators really do and 
how accountable they are and how open it is.
    The delegates tell me, ``I can't even get into the 
parliament building, into where the offices are.'' That is 
really something.
    The State Department is an executive branch program, and so 
it looks at what the priorities of the President are, whether 
it is President Bush or President Obama. That is what they are 
focused on. We are focused on a much more basic level of 
showing our participants what you may expect when your 
government is accountable.
    The second element, which is very significant, is our 
nimbleness. The State Department is a big bureaucracy. They 
have hundreds, perhaps over 1,000 people working on exchanges. 
We have seven.
    They have to go through a process. I have a board, which is 
accessible and gives me advice, and I can say yes or no.
    So, for example, what is happening in Russia now, we are 
adjusting to that developing situation. What is happening in 
Ukraine, we can switch the numbers. We don't have to pull 
something out of this Embassy's budget and try to get there. We 
just can do it.
    And then, even though this is a third point, and I only 
said two, the home stays are really something, and State 
doesn't do it. First of all, it makes us a lot cheaper. We are 
less than half the price. But the results that come from 
staying with American families are priceless.
    Senator Shaheen. And just a final question, as you are 
looking at the upcoming year, how many of your delegates had 
you expected to be Russian? And who will you replace those 
people with out of a total delegation?
    Ambassador O'Keefe. Yes, ma'am. The Russian numbers were 
about 590, and we are going to drop those down into the high 
400s. And for that hundred, we are going to add them to 
Ukraine, so we will just shift them from one place to another.
    And, as I mentioned, the Russian numbers that come down 
will be government officials who will not travel here now.
    Senator Shaheen. Further questions? Senator Hoeven.
    Well, thank you both very much.
    Thank you for testifying here today and for all of the good 
work that you do for all of us here in the Capitol area and 
also for the taxpayers of this country.

                     ADDITIONAL COMMITTEE QUESTIONS

    The record of this hearing is going to remain open for one 
week until noon on Tuesday, April 15, for anyone to submit 
statements and questions.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response, subsequent to the 
hearing:]
          Questions Submitted to Hon. Dr. James H. Billington
             Questions Submitted by Senator Jeanne Shaheen
                          preservation efforts
    Question. In fiscal year 2015, the Library of Congress' (LOC's) 
request includes $22 million for preservation efforts, $4.9 million of 
which specifically funds the Library's Mass Deacidification Program. As 
part of the program, the Library originally anticipated completing 8.5 
million volumes and 30 million manuscript sheets by fiscal year 2030. 
Is the Library on track to meet that goal?
    Answer. The Library is ahead of schedule for the treatment of books 
by approximately 2\1/2\ years. In 2001, the Library estimated that 8.5 
million books would require deacidification treatment. Through fiscal 
2013, the Library has treated 3.7 million books and is approximately 
800 thousand books ahead of schedule. A mid-program review has 
estimated the future need for treatment to be no more than 4.1 million 
books, and it could be considerably lower due to drastically reduced 
numbers of new, incoming acidic books. Today, our revised program 
target total is 7.8 million books. For manuscript sheets the Library is 
on schedule, and the program target remains to treat 30 million sheets.
    Question. Has the original goal or methodology changed in response 
to advances in preservation technologies since it was first developed 
in the 1990s?
    Answer. The physical characteristics of the collections dictate 
that the Library maintain a diversified and well balanced preservation 
program. Given that the Library is almost midway through the original 
30-year Mass Deacidification Program timeframe, now is a prudent time 
to re-evaulate target collection needs in light of available 
technologies.
    Since the late 1990s, the costs of deacidification and cold storage 
have increased somewhat, while the cost of digital reformatting for 
stable material has decreased significantly. The Library views all 
three approaches as having measured preservation value for the 
Library's collections. The original mass deacidification program goal 
was established before the advancement of digital conversion technology 
was well understood and before the appropriate technical infrastructure 
was available to support the content. The original program goal also 
was developed before the first Ft. Meade environmental storage module 
was available. For the subset of acidic general collection books that 
are in sound and usable condition--a sizeable subset of the Library's 
collection--deacidification remains a viable preservation option at 
current costs. The presence of a deacidification alkaline reserve is 
beneficial for paper strength retention and the prevention of 
embrittlement. At room temperature, research shows that deacidified 
paper will retain its strength about 3.3 times longer than untreated 
paper. However, mass deacidification addresses only one form of paper 
deterioration--the loss of physical strength and embrittlement caused 
mainly by acid hydrolysis.
    An improved storage environment, on the other hand, addresses 
multiple forms of chemical decay including loss of strength, 
discoloration, and leather binding deterioration, and is helpful in 
reducing the impact of light and pollutant damage. Colder storage 
provides preservation benefits to a broader range of collections, 
including those materials that cannot be deacidified, such as severely 
embrittled books and photographs. Research shows that, at current Ft. 
Meade storage facility temperature and humidity levels, acidic paper 
will retain its strength about two times longer than if stored at 
normal room temperature and humidity. Construction of these modules 
also increases the overall storage capacity of the Library.
    Digital reformatting of embrittled works offers not only access for 
multiple users but also transformative value, for example through text 
search capabilities, not possible when only preserving the original 
artifact. The quantity of severely embrittled books (16 percent of 
survey sample) that cannot benefit from deacidification represents a 
growing concern and will require additional preservation resources. In 
addition, the current overcrowding in book collection storage areas 
represents further risk to the collections and limits the ability to 
effectively identify candidate items for deacidification. These 
logistics dictate a decelerated program pace for the next 5-year period 
until additional Ft. Meade storage modules can be constructed and 
occupied.
                           copyright backlog
    Question. The Copyright Office's transition to electronic 
processing in 2007 resulted in a backlog of unprocessed registration 
applications. The Copyright Office has previously reported on 
addressing this backlog and reducing processing times. However, 
beginning in fiscal year 2012, budget cuts and sequestration forced the 
Copyright Office to reduce the number of staff available to process 
these claims. Please provide a status update on the progress being made 
in terms of the copyright registration backlog.
    Answer. Updating the registration program for the digital age has 
been a focus of the Register of Copyrights over the past several years. 
Unfortunately, under-staffing and other infrastructure challenges 
brought about by budget shortfalls have created difficulties in the 
overall management of the registration program.
    In the past 2 years, the number of outstanding claims has slowly 
but steadily increased to over 240,000 and continues to rise. The 
pendency time for processing applications has also increased. Not 
surprisingly, staffing levels in the Registration Program are a key 
issue, with staffing falling nearly 25 percent during this period. In 
order to meet reasonable customer expectations in terms of service 
delivery while also maintaining the highest quality level of work, the 
Copyright Office requires sufficient funding to attract and train new 
Registration Specialists to make up for losses sustained in recent 
years.
    Question. Is the Copyright Office going to be able to get back on 
track and make up ground that was lost during sequestration?
    Answer. The Register notes that replacing trained Registration 
Specialists is both time- and resource-intensive. These staff are 
professionals who must successfully complete a formal, rigorous program 
of training in U.S. copyright law, and they assess whether applications 
and corresponding deposits meet the legal and formal requirements of 
the statute based on their training in the Copyright Act. Formal 
training typically takes 2-3 years for trainees to achieve complete 
competency and independence, and the training is also conducted in 
house, which means existing resources must be diverted for the entirety 
of the training period.
    Apart from staffing issues, the Register has previously expressed 
the need to address shortcomings with the technology that supports the 
registration program. In that regard, the Office has worked with a 
diverse group of stakeholders over the past 2 years to define possible 
improvements to information technology applications and databases. 
These customers want a variety of updates, including user-friendly web 
interfaces, instructional wizards, the ability to see all completed 
registrations as well as the status of claims within the processing 
system, granulated identification systems (works within works), image-
recognition capabilities or partnerships with those who have those 
capabilities, business-to-business data exchange to support batch 
submissions, the facilitation of APIs to connect disparate IT systems, 
compatibility with mobile devices, and swifter and easier processes.
    In the past 2 years, the Copyright Office has spent considerable 
time updating the Compendium of Practices for the digital environment, 
as well as discussing with its customers the Office's quality level of 
services and improvements it might or should make. It is clear that in 
this digital era of copyright law, the ability of the Register to run 
the national registration system and otherwise administer the copyright 
law is largely dependent upon the investment, planning, and management 
of technology infrastructure.
    Registration volume has generally remained steady over the past 
several decades, primarily because registration carries certain legal 
benefits when exercised in a timely manner (as set forth in the 
Copyright Act). Nonetheless, registration does not come close to 
encompassing most works of authorship and it is unknown, but must be 
presumed, that it does not encompass all of the most culturally or 
commercially important ones. As the Register has stated in her lectures 
and testimony, if the registration system is going to play a vital role 
within the copyright law of the twenty-first century, it has to be made 
lighter, swifter and more reflective of the digital era. Certainly the 
electronic registration system in 2014 represents a major achievement. 
It does not, however, offer the level of service that would truly 
facilitate a twenty-first century law.
                        copyright modernization
    Question. The Copyright Office has noted that they currently do not 
offer an online filing system for document recordation. They have 
stated that first-year costs for initial planning and development of 
this capability would be $1.5 million. What does the Copyright Office 
anticipate in terms of future annual costs to complete development of 
an online document recordation system? What is the anticipated total 
program cost to implement the system?
    Answer. The Copyright Office is undertaking analyses of relevant 
information, including public comments and business requirements, to 
assess the long term costs. In this process, it is considering the 
costs of recordation as part of a bigger picture, in which improvements 
to registration and statutory license functions are necessary. It is 
also possible that Congress may make changes to the statutory 
responsibilities of the Copyright Office over the next few years, as it 
proceeds with discussions to modernize the copyright law.
    Question. What timeframe does the Copyright Office anticipate in 
terms of completing the online document recordation system?
    Answer. The Copyright Office has done quite a lot of ground work in 
the past couple of years, and it is in the middle of a targeted public 
discussion regarding the best way to bring the recordation function 
online. For example, the Register solicited written comments and 
conducted three public hearings in New York, Los Angeles and Northern 
California, respectively. The hearings, which were coordinated by the 
Copyright Office Arthur Kaminstein Scholar-in-Residence, focused on 
five questions that will further refine the Register's recommendations 
to Congress and the ultimate strategies for administrative 
improvements.
    To protect the existing records, the Office may need to bring 
recordation on line in phases. In any event, it is clear that the long-
term success of a recordation project will depend upon the quality and 
flexibility of technology infrastructure and the budgets available for 
it. It may also require retraining staff or recalibrating their roles 
over time. The Register created a new Office of Public Records and 
Repositories and appointed a new Senior Level manager to oversee this 
work.
    Finally, the Register has testified that the registration and 
recordation databases, as currently populated and presented, do not 
produce adequate information about registered claims or their owners. I 
understand that some of these issues were a focus of Congressional 
deliberations in recent years regarding the problem of so-called 
``orphan works'' (missing copyright owners) and the requirement that 
would-be users conduct a diligent search of copyright records.
    In summary, the Copyright Office will have both short-term and 
long-term costs as it moves forward.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
                              methodology
    Question. How is the Library's Budget Request compiled? How does 
the Office of the Librarian, CRS, Copyright Office, and Books for the 
Blind and Physically Handicapped submit their budget requests?
    Answer. The Library's annual budget request is discussed with the 
Executive Committee in careful consideration of both the Library's 
internal programmatic needs and the external budget environment. The 
Library's budget formulation process is coordinated through the office 
of our Chief Financial Officer, and Executive Committee members are 
asked to submit their input through this process and to me directly 
during our executive discussions.
                            copyright office
    Question. How have changes to copyright law and the increase in 
digital media affected the budgetary needs of the Copyright Office? 
What are the most pressing needs?
    Answer. Sweeping changes in recent years to the ways in which works 
of authorship are created, disseminated, accessed, and protected 
require the Copyright Office to undertake fairly dramatic modernization 
efforts, particularly with regard to IT infrastructure and 
applications, to meet the needs and expectations of its customers and 
the marketplace. These efforts will require both immediate and long 
term resource commitments, and they are intertwined with the evolution 
of the copyright law. It is possible that Congress will assign new 
responsibilities to the Copyright Office or adjust the responsibilities 
it already has. The Copyright Office administers the copyright law, and 
it is therefore at the center of our national system. Improvements to 
copyright registration and the recordation of copyright documents are 
probably most pressing. However, the Copyright Office is also required 
to assist with trade negotiations, treaties, and litigation of the 
United States and is therefore always in need of expert legal staff.
                                 ______
                                 
              Question Submitted to Hon. Stephen T. Ayers
               Question Submitted by Senator John Hoeven
                       dome restoration progress
    Question. Are you on track to meet cost/schedule requirements on 
Dome Restoration? How are you informing members and the public about 
your progress?
    Answer. The Dome Restoration Project--Phase IIA is on budget and on 
schedule to meet the final construction date. The preparatory work, 
including the recent installation of safety netting in the Capitol 
Rotunda, as well as the art and floor protection is complete.
    Throughout the duration of the Dome Restoration Project, the 
Architect of the Capitol will provide up-to-date information on its Web 
site at www.aoc.gov/dome. In addition, updates are provided via social 
media including Twitter, Facebook, Instagram, YouTube and Flickr. 
Informational signage around Capitol Grounds will supply visitors with 
information and provide links to online resources. A Dome Restoration 
Project video is now playing in a kiosk in the Crypt, and on a kiosk 
near the entrance to Exhibition Hall. Capitol Visitor Center (CVC) 
Visitor Services staff are using the video to help educate visitors 
about the history of the Capitol Dome and about the restoration 
Project.
    The CVC staff has prepared a Dome Restoration brochure, targeted at 
the general public, and it is being distributed to congressional staff. 
It is available online and in print at the CVC.
    The CVC also plans to install several Dome Restoration Project 
interpretive panels located at the upper level balcony overlook below 
the skylights. They will provide general descriptive information about 
current project activities and can easily be changed with new panels as 
the project progresses. A portion of the CVC's digital panels in 
Emancipation Hall and in the CVC Restaurant also will be used to 
provide information about the Restoration Project.
    In addition, CVC staff are using interpretive materials on their 
educational carts to show visitors objects from the Capitol Dome that 
are in need of restoration. They are also demonstrating the ``lock and 
stitch'' repair method that will be used to fix cracks in the Capitol 
Dome.
    CVC staff are reaching out to local travel industry 
representatives, including tour bus companies, professional tour 
guides, Destination DC and the U.S. Capitol Historical Society to alert 
them of changes in access to the Capitol during the Dome Restoration 
Project.
                                 ______
                                 
           Questions Submitted to Ambassador John M. O'Keefe
               Questions Submitted by Senator John Hoeven
                             prioritization
    Question. What are your immediate needs? In a time of constrained 
budgetary resources, there are tradeoffs that are made within any 
budget. How did you set your priorities?
    Answer. Our immediate need is sufficient funding to allow the 
program to function in areas critical to U.S. interests--Ukraine, 
Georgia, Central Asia, Turkey and other countries near the Russian 
Federation and along its borders.
    Our priorities are set by the Board of Trustees, a majority of whom 
are Members of Congress. They have identified the Open World Leadership 
Center's top priority as maintaining the highest quality programming 
for the lowest price. Our historical overhead rate of 7 percent 
demonstrates just how great an amount of our funding goes directly to 
providing a robust, highly tailored local program for the visiting 
delegates. We take our position as stewards of public money very 
seriously and strive to make every dollar stretch as far as possible. 
We work closely with our grantees to ensure that their budgets meet our 
high standards. As a small agency with a single mission and low 
overhead, there are not many tradeoffs that can be made, so that when 
our budget is cut further we must limit the number of delegates we 
bring on our program--any other cuts would negatively impact program 
quality. Budget cuts increase per person costs and overhead, as certain 
base costs to our program are fixed and cannot be lowered even with a 
decrease in participation.
    For the rest of fiscal year 2014 and into fiscal year 2015, the 
Board has directed us to shift funds allocated for participants from 
the Russian Federation to those from Ukraine, to boost our programs in 
countries neighboring the Russian Federation, and to explore more 
partnerships, such as the cost sharing arrangement with the High 
Council of Judges of the Turkish Republic. Budget cuts directly affect 
priorities and diminish our capacity to carry out our Board mandates.
                     office and personnel in russia
    Question. Explain what the staff in your Russia office do? Is the 
staffer there shared with the State Department? How are office expenses 
paid for?
    Answer. We have one Foreign Service National (FSN) working in the 
U.S. Embassy in Moscow. The FSN acts as the representative of Open 
World in Russia, serving as liaison to both Russian organizations and 
agencies and the broader community of Open World partners and alumni. 
He has developed a network of trusted nominating entities and partners 
throughout all of Russia. He also monitors the nominations and vetting 
process and seeks cost share partners.
    While we reimburse his salary and benefits, the staff member is a 
Department of State employee and his duties are entirely related to the 
Open World program. Office expenses at the Embassy are paid via an 
International Cooperative Administrative Support Services agreement, an 
interagency agreement with the Department of State. This agreement 
covers salaries, benefits, and office expenses of the FSN.
    Question. As Russian programming is reduced, is there a need to 
continue staffing in Moscow, itself? Why not shift focus to Ukraine?
    Answer. We have already adjusted the staffing levels in the 
Embassy. Until January 6 of this year, we had two FSNs working on our 
program at the Embassy. So as Russian participants of the program 
decreased 50 percent, staffing levels were reduced accordingly. We are 
of course turning our focus to Ukraine in particular. For fiscal year 
2014 program planning and despite a 25 percent cut from the fiscal year 
2013 appropriation, Ukraine participation stands to increase as a 
percentage of overall participants. Our logistical contractor has a 
staff member in Kyiv who is dedicated solely to the Open World program, 
so our needs are well covered at this time, even with increased 
participation.

                         CONCLUSION OF HEARINGS

    Senator Shaheen. And again, thank you. The hearing is 
adjourned.
    [Whereupon, at 4:30 p.m., Tuesday, April 8, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
